APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-60293
WILL MCRANEY,
Plaintiff-Appellant,
v.
THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION, INCORPORATED,
Defendant-Appellee.
Filed July 16, 2020
Appeal from the United States District Court
for the Northern District of Mississippi
Before CLEMENT, HIGGINSON, and ENGELHARDT, Circuit Judges. STEPHEN A. HIGGINSON,
Circuit Judge:
Plaintiff-Appellant Will McRaney brought suit
against Defendant-Appellee North American Mission
Board of the Southern Baptist Convention (“NAMB”)
for intentional interference with business relationships,
defamation, and intentional infliction of emotional distress. The district court dismissed the case for lack of
jurisdiction, citing the ecclesiastical abstention doctrine, also known as the religious autonomy doctrine.
The district court found that it would need to resolve
ecclesiastical questions in order to resolve McRaney’s

2a
claims. Because that conclusion was premature, we
REVERSE and REMAND.
We review a dismissal for lack of subject matter jurisdiction de novo. Williams v. Wynne, 533 F.3d 360,
364 (5th Cir. 2008). Dismissal is only proper if “it appears certain that the plaintiff cannot prove any set of
facts in support of her claim which would entitle her to
relief.” Wagstaff v. U.S. Dep’t of Educ., 509 F.3d 661,
663 (5th Cir. 2007) (quoting Bombardier Aerospace
Emp. Welfare Benefits Plan v. Ferrer, Poirot & Wansbrough, 35 F.3d 348, 351 (5th Cir. 2003)).1
1

We note that it is somewhat unclear whether the ecclesiastical abstention doctrine serves as a jurisdictional bar requiring
dismissal under Fed. R. Civ. P. 12(b)(1) or an affirmative defense
requiring dismissal under Fed. R. Civ. P. 12(b)(6). See, e.g., Nayak
v. MCA, Inc., 911 F.2d 1082, 1083 (5th Cir. 1990) (dismissing the
case pursuant to Fed. R. Civ. P. 12(b)(6) without explicitly discussing the jurisdictional nature of the doctrine); Simpson v. Wells
Lamont Corp., 494 F.2d 490, 492, 495 (5th Cir. 1974) (stating that
“[t]he people of the United States conveyed no power to Congress
to vest its courts with jurisdiction to settle purely ecclesiastical
disputes” but affirming summary judgment rather than instructing the district court to dismiss for lack of jurisdiction); see also
Watson v. Jones, 13 Wall. 679, 733 (1871) (describing a dispute that
is “strictly and purely ecclesiastical in its character” as “a matter
over which the civil courts exercise no jurisdiction”); HosannaTabor Evangelical Lutheran Church & Sch. v. EEOC, 565 U.S.
171, 195 n.4 (2012) (clarifying that the related “ministerial exception” is an affirmative defense rather than a jurisdictional bar);
Hubbard v. J Message Grp. Corp., 325 F. Supp. 3d 1198, 1208-09
(D.N.M. 2018) (collecting cases) Kavanagh v. Zwilling, 997 F.
Supp. 2d 241, 248 n.7 (S.D.N.Y. 2014) (discussing the uncertainty
surrounding the jurisdictional nature of the ecclesiastical abstention doctrine post-Hosanna-Tabor). We need not resolve this uncertainty because dismissal was improper, regardless. See Cannata v. Catholic Diocese of Austin, 700 F.3d 169, 171 (5th Cir. 2012)
(finding that review under Fed. R. Civ. P. 12(b)(6) “requires us to
scrutinize the same materials we would have considered were the

3a
The ecclesiastical abstention doctrine recognizes
that the Establishment Clause of the First Amendment
precludes judicial review of claims that require resolution of “strictly and purely ecclesiastical” questions.
Serbian E. Orthodox Diocese for U.S. and Can. v. Milivojevich, 426 U.S. 696, 713 (1976) (quoting Watson v.
Jones, 13 Wall. 679, 733 (1871)); Kedroff v. St. Nicholas
Cathedral of Russian Orthodox Church in N. Am., 344
U.S. 94, 115-16 (1952); Kreshik v. St. Nicholas Cathedral, 363 U.S. 190, 190-91 (1960). “[M]atters of church
government, as well as those of faith and doctrine” constitute purely ecclesiastical questions. Kedroff, 344 U.S.
at 116; see also Simpson v. Wells Lamont Corp., 494
F.2d 490, 493 (5th Cir. 1974) (emphasizing that the ecclesiastical abstention doctrine covers matters of
church government as well as matters of religious doctrine). But “[t]he First Amendment does not categorically insulate religious relationships from judicial scrutiny, for to do so would necessarily extend constitutional protection to the secular components of these relationships,” which “would impermissibly place a religious leader in a preferred position in our society.”
Sanders v. Casa View Baptist Church, 134 F.3d 331,
335-36 (5th Cir. 1998); see also Bd. of Educ. of Kiryas
Joel Vill. Sch. Dist. v. Grumet, 512 U.S. 687, 703 (1994)
(describing the principle “that government should not
prefer one religion to another, or religion to irreligion”
as “at the heart of the Establishment Clause”); Jones v.
Wolf, 443 U.S. 595, 602 (1979) (holding that courts may
apply neutral principles of law to resolve church property disputes). Therefore, the relevant question is
case properly before us on a 12(b)(1) motion”); Ramming v. United
States, 281 F.3d 158, 161-62 (5th Cir. 2001) (providing the standards of review for dismissals under Fed. R. Civ. P. 12(b)(1) and
12(b)(6)).

4a
whether it appears certain that resolution of
McRaney’s claims will require the court to address
purely ecclesiastical questions. At this stage, the answer is no.
Critically, many of the relevant facts have yet to be
developed. Presently, we know only the following: (1)
McRaney formerly worked as the Executive Director
of the General Mission Board of the Baptist Convention
for Maryland/Delaware (“BCMD”), one of 42 separate
state conventions that work in cooperation with the
Southern Baptist Convention; (2) NAMB, which has
never been McRaney’s employer, is one of twelve
boards and agencies of the Southern Baptist Convention; (3) NAMB and BCMD entered into a Strategic
Partnership Agreement (“SPA”) that addressed issues
of personnel, cooperation, and funding; (4) McRaney
declined to adopt a new SPA on behalf of BCMD, and
NAMB notified BCMD that it intended to terminate
the SPA in one year; (5) McRaney’s employment was
either terminated or he resigned; (6) after his termination, McRaney was uninvited to speak at a large mission symposium in Louisville, Mississippi; and (7) a photograph of McRaney was posted at NAMB headquarters in Alpharetta, Georgia.
McRaney alleges that NAMB intentionally made
false statements about him to BCMD that resulted in
his termination. Specifically, he alleges that NAMB
falsely told BCMD that he refused to meet with
Dr. Kevin Ezell, president of NAMB, to discuss a new
SPA. He also alleges that NAMB intentionally got him
uninvited to speak at the mission symposium and posted his picture at its headquarters to “communicate that
[McRaney] was not to be trusted and [was] public enemy #1 of NAMB.”

5a
In order to resolve McRaney’s claims, the court will
need to determine (1) whether NAMB intentionally and
maliciously damaged McRaney’s business relationships
by falsely claiming that he refused to meet with Ezell,
see Scruggs, Millette, Bozeman & Dent, P.A. v. Merkel
& Cocke, P.A., 910 So. 2d 1093, 1098 (Miss. 2005); (2)
whether NAMB’s statements about McRaney were
false, defamatory, and at least negligently made, see
Jernigan v. Humphrey, 815 So. 2d 1149, 1153 (Miss.
2002); and (3) whether NAMB intentionally caused
McRaney to suffer foreseeable and severe emotional
distress by displaying his picture at its headquarters,
see Jones v. City of Hattiesburg, 228 So. 3d 816, 819
(Miss. 2017).
At this early stage of the litigation, it is not clear
that any of these determinations will require the court
to address purely ecclesiastical questions. McRaney is
not challenging the termination of his employment, see
Simpson, 494 F.2d at 492-93 (affirming dismissal of a
lawsuit in which the plaintiff challenged his removal as
pastor), and he is not asking the court to weigh in on
issues of faith or doctrine, see Nayak v. MCA, Inc., 911
F.2d 1082, 1082-83 (5th Cir. 1990) (affirming dismissal
of a defamation lawsuit seeking to enjoin the distribution and presentation of the movie “The Last Temptation of Christ”). His complaint asks the court to apply
neutral principles of tort law to a case that, on the face
of the complaint, involves a civil rather than religious
dispute. See, e.g., Jones, 443 U.S. at 602 (holding that
courts may apply neutral principles of law to resolve
church property disputes); Myhre v. Seventh-Day Adventist Church Reform Movement Am. Union Int’l
Missionary Soc’y, 719 F. App’x 926, 928 (11th Cir. 2018)
(“Civil courts may apply neutral principles of law to decide church disputes that ‘involve[] no consideration of

6a
doctrinal matters.’” (quoting Jones, 443 U.S. at 602));
Hutterville Hutterian Brethren, Inc. v. Sveen, 776 F.3d
547, 553 (8th Cir. 2015) (“[A] court need not defer to an
ecclesiastical tribunal on secular questions and permissibly may resolve a matter by applying neutral principles of the law.” (internal quotation marks omitted));
Askew v. Trs. of Gen. Assembly of Church of the Lord
Jesus Christ of the Apostolic Faith, Inc., 684 F.3d 413,
419 (3d Cir. 2012) (“When a church dispute turns on a
question devoid of doctrinal implications, civil courts
may employ neutral principles of law to adjudicate the
controversy.”); Merkos L’Inyonei Chinuch, Inc. v.
Otsar Sifrei Lubavitch, Inc., 312 F.3d 94, 99-100 (2d Cir.
2002) (“Courts may decide disputes that implicate religious interests as long as they can do so based on ‘neutral principles’ of secular law without undue entanglement in issues of religious doctrine.”).
Other courts have held that similar claims did not
require resolution of purely ecclesiastical questions. In
Marshall v. Munro, 845 P.2d 424 (Alaska 1993), the
Alaska Supreme Court found that it had jurisdiction to
consider claims of intentional interference with a contract and defamation brought by a minister against a
church executive. Id. at 425, 429. There, as here, the
alleged interference consisted of false statements that
were not religious in nature.2 Id. at 425. The court
found that, under these circumstances, resolution of the
plaintiff’s claims would not require the court to deter2

NAMB argues that Marshall is distinguishable because this
dispute “is rooted in and intertwined with the primary ministry
strategies of various religious organizations.” At least at this time,
the record does not support NAMB’s view. The only derogatory
information McRaney identifies in his complaint—statements by
NAMB that McRaney refused to meet with Ezell—is not ecclesiastical in nature.

7a
mine whether the plaintiff was qualified to serve as a
pastor. Id. at 428.
Similarly, in Drevlow v. Lutheran Church, Missouri Synod, 991 F.2d 468 (8th Cir. 1993), the Eighth
Circuit found that it had jurisdiction over a claim of intentional interference with a legitimate expectation of
employment brought by a minister against a religious
organization. Id. at 469, 472. The plaintiff alleged that
the organization placed false information—that his
spouse had previously been married—in his personal
file. Id. at 469. The court reasoned that the plaintiff’s
fitness as a minister was not in dispute and the defendant had not yet “offered any religious explanation for
its actions which might entangle the court in a religious
controversy.” Id. at 471-72. The Eighth Circuit recognized, however, that its decision was preliminary. Id.
at 472 (“If further proceedings reveal that this matter
cannot be resolved without interpreting religious procedures or beliefs, the district court should reconsider
the ... motion to dismiss.”). The same is true here. If
further proceedings and factual development reveal
that McRaney’s claims cannot be resolved without deciding purely ecclesiastical questions, the court is free
to reconsider whether it is appropriate to dismiss some
or all of McRaney’s claims.3

3

NAMB previously moved for dismissal based on the ministerial exception, see Hosanna-Tabor, 565 U.S. at 188; see also Our
Lady of Guad. Sch. v. Morrissey-Berru, --- S. Ct. ---, 2020 WL
3808420 (July 8, 2020), but the district court denied that motion,
finding that the ministerial exception only applies to disputes between employees and employers, not employees and third parties.
Both parties agree that the correctness of the district court’s decision regarding the applicability of the ministerial exception is not
before us.

8a
NAMB broadly objects that it may have “valid religious reason[s]” for its actions. On remand, if NAMB
presents evidence of these reasons and the district
court concludes that it cannot resolve McRaney’s claims
without addressing these reasons, then there may be
cause to dismiss. See id. Were such a broad statement
alone sufficient to warrant dismissal at this stage, however, religious entities could effectively immunize
themselves from judicial review of claims brought
against them.
“The First Amendment protects the right of religious institutions ‘to decide for themselves, free from
state interference, matters of church government as
well as those of faith and doctrine.”’ Our Lady of Guad.
Sch. v. Morrissey-Berru, --- S. Ct. ---, 2020 WL 3808420,
at *3 (July 8, 2020) (quoting Kedroff, 334 U.S. at 116).
At this time, it is not certain that resolution of
McRaney’s claims will require the court to interfere
with matters of church government, matters of faith, or
matters of doctrine. The district court’s dismissal was
premature. Accordingly, we REVERSE and REMAND.

9a
UNITED STATES OF COURT OF APPEALS
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

July 16, 2020
MEMORANDUM TO COUNSEL OR PARTIES
LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for
Rehearing or Rehearing En Banc

No. 19-60293

Will McRaney v. N Amer Mission
Bd So Baptist
USDC No. 1:17-CV-80
-----------------------------------

Enclosed is a copy of the court’s decision. The court
has entered judgment under FED. R. APP. P. 36.
(However, the opinion may yet contain typographical
or printing errors which are subject to correction.)
FED. R. APP. P. 39 through 41, and 5TH Cir. R.s 35, 39,
and 41 govern costs, rehearings, and mandates. 5TH
Cir. R.s 35 and 40 require you to attach to your petition for panel rehearing or rehearing en banc an
unmarked copy of the court’s opinion or order.
Please read carefully the Internal Operating Procedures (IOP’s) following FED. R. APP. P. 40 and 5TH CIR.
R. 35 for a discussion of when a rehearing may be appropriate, the legal standards applied and sanctions
which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5TH CIR. R. 41 provides that
a motion for a stay of mandate under FED. R. APP. P. 41

10a
will not be granted simply upon request. The petition
must set forth good cause for a stay or clearly demonstrate that a substantial question will be presented to
the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases. If you were unsuccessful in the district
court and/or on appeal, and are considering filing a petition for certiorari in the United States Supreme Court,
you do not need to file a motion for stay of mandate under FED. R. APP. P. 41. The issuance of the mandate
does not affect the time, or your right, to file with the
Supreme Court.
Court Appointed Counsel. Court appointed counsel is
responsible for filing petition(s) for rehearing(s) (panel
and/or en banc) and writ(s) of certiorari to the U.S. Supreme Court, unless relieved of your obligation by
court order. If it is your intention to file a motion to
withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for rehearing and certiorari. Additionally, you
MUST confirm that this information was given to your
client, within the body of your motion to withdraw as
counsel.
The judgment entered provides that appellant pay to
appellee the costs on appeal. A bill of cost form is
available on the court’s website www.ca5.uscourts.gov.
Sincerely,
LYLE W. CAYCE, Clerk,
By: signature
Kenneth G. Lotz, Deputy
Clerk

11a
Enclosure (s)
Mr. William Harvey Barton II
Ms. Kathleen Ingram Carrington
Ms. Donna Brown Jacobs
Mr. Joshua Jerome Wiener

13a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF MISSISSIPPI
ABERDEEN DIVISION
Civil Action No. 1:17-cv-080-GHD-DAS
WILL MCRANEY,
Plaintiff,
v.
THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION, INC.,
Defendant.
ORDER GRANTING IN PART AND DENYING IN
PART DEFENDANT’S MOTION TO DISMISS
Pursuant to an opinion issued this day, it is hereby
ORDERED that the Defendant’s motion to dismiss
[Doc. No. 8] is GRANTED IN PART AND DENIED
IN PART, as follows:
(1) The motion is GRANTED insofar as it
seeks dismissal of COUNT IV of the Plaintiffs Complaint [Doc. No. 2, at p. 7], which
is the Plaintiff’s claim for intentional interference with his speaking engagement at
the Pastor’s Conference in Florida, and
that claim is DISMISSED WITH PREJUDICE; and
(2) The motion is DENIED in all other respects.

14a
SO ORDERED, this, the 18th day of January, 2018.
signature________________________
SENIOR U.S. DISTRICT JUDGE

15a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF MISSISSIPPI
ABERDEEN DIVISION
Civil Action No. 1:17-cv-080-GHD-DAS
WILL MCRANEY,
Plaintiff,
v.
THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION, INC.,
Defendant.
MEMORANDUM OPINION GRANTING IN PART
AND DENYING IN PART DEFENDANT’S
MOTION TO DISMISS
Before the Court is the Defendant North American
Mission Board of the Southern Baptist Convention’s
(“NAMB”) motion to dismiss [Doc. No. 8] the Plaintiff’s
claims pursuant to Rule 12(b)(6) of the Federal Rules of
Civil Procedure. The matter is now ripe for review.
Upon due consideration, the Court finds that the motion should be granted in part and denied in part.
Background
The Plaintiff Will McRaney (“McRaney”) is the
former Executive Director of the non-party General
Mission Board of the Baptist Convention for Maryland/Delaware (“BCMD”). Pl.’s Comp. [Doc. No. 2] at 2.
The BCMD is a self-governing group of 560 separate,
autonomous churches. Id. It is one of 42 separate state

16a
conventions that work in cooperation with the nonparty Southern Baptist Convention (“SBC”). Id.
The Defendant NAMB is a constituent board of the
SBC. Id at 2. While McRaney was never employed by
the NAMB, he was employed by the BCMD, which
partnered together with the NAMB under a “Strategic
Partnership Agreement.” Id. at 3. Aside from the obligations of this agreement, the BCMD are NAMB are
separate and autonomous from each other. The BCMD
is self-governing with its own boards and member
churches, and the NAMB operates pursuant to its own
Board of Trustees selected at annual meetings of the
SBC. Id.
Under their partnership agreement, the BCMD
and NAMB had eight jointly funded staff positions that
were overseen by McRaney. Id. . In 2014, the NAMB
developed a revised partnership agreement that eliminated the jointly-funded staff positions and gave the
NAMB greater control over other staff positions of the
BCMD. Id. The NAMB was unsuccessful in persuading McRaney to accept the new partnership agreement
on behalf of the BCMD. NAMB President Dr. Kevin
Ezell and Vice President Jeff Christopherson thereafter gave notice to the BCMD that the NAMB intended
to cancel the partnership agreement between the
NAMB and the BCMD. Id. at 4.
In June 2015, following meetings between Dr. Ezell
and other board members of the BCMD, McRaney was
terminated from his position as Executive Director of
the BCMD. Id. According to McRaney, this was because Ezell threated to withhold all NAMB funds from
the BCMD unless the BCMD terminated McRaney and
agreed to enter into the new partnership agreement.
Id. at 5.

17a
McRaney alleges that, after his termination from
employment with the BCMD, NAMB leadership continued to interfere with business and contractual relationships that McRaney had with third parties. For instance, McRaney avers that, in October 2016, he was
scheduled to speak at a mission symposium in Louisville, Mississippi, until NAMB employees allegedly
spoke to organizers of the event and had him uninvited.
Id. Additionally, in November 2016, McRaney alleges
that he was scheduled to speak at the Florida Baptist
Convention Pastor’s Conference. In early November,
the Pastor’s Conference President informed McRaney
that Dr. Ezell had attempted, unsuccessfully, to get
McRaney’s appearance canceled. Id. Finally, McRaney
alleges that his photo was posted at the NAMB headquarters welcome desk with a caption that stated he
was not to be trusted. Id.
McRaney then filed this action in the Circuit Court
of Winston County, Mississippi, alleging three claims of
intentional interference with business relationships,
one claim of defamation, and one claim of intentional
infliction of emotional distress. The NAMB then removed the case to this Court based on federal diversity
jurisdiction, and after filing its answer, filed the present motion seeking to dismiss McRaney’s claims.
Standard for Dismissal Under Rule 12(B)(6)
Motions to dismiss pursuant to Rule 12(b)(6) “are
viewed with disfavor and are rarely granted.” Kocurek
v. Cuna Mut. Ins. Soc’y, 459 F. App’x 371, 373 (5th Cir.
2012) (citing Gregson v. Zurich Am. Ins. Co., 322 F.3d
883, 885 (5th Cir. 2003)). When deciding a Rule 12(b)(6)
motion to dismiss, the Court is limited to the allegations set forth in the complaint and any documents attached to the complaint. Walker v. Webco Indus., Inc.,

18a
562 F. App’x 215, 216-17 (5th Cir. 2014) (per curiam)
(citing Kennedy v. Chase Manhattan Bank USA, NA,
369 F.3d 833, 839 (5th Cir. 2004)).
“[A plaintiffs] complaint therefore ‘must contain
sufficient factual matter, accepted as true, to “state a
claim to relief that is plausible on its face.” ’ ” Phillips
v. City of Dallas, Tex., 781 F.3d 772, 775-76 (5th Cir.
2015) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678, 129
S. Ct. 1937, 173 L. Ed. 2d 868 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955,
167 L. Ed. 2d 929 (2007))). A claim is facially plausible
when the pleaded factual content “allows the court to
draw the reasonable inference that the defendant is liable for the misconduct alleged.” Iqbal, 556 U.S. at 678,
129 S. Ct. 1937 (citing Twombly, 550 U.S. at 556, 127 S.
Ct. 1955). “[P]laintiffs must allege facts that support
the elements of the cause of action in order to make out
a valid claim.” Webb v. Morella, 522 F. App’x 238, 241
(5th Cir. 2013) (per curiam) (quoting City of Clinton,
Ark. v. Pilgrim’s Pride Corp., 632 F.3d 148, 152-53 (5th
Cir. 2010) (internal quotation marks omitted)).
“[C]onclusory allegations or legal conclusions masquerading as factual conclusions will not suffice to prevent a
motion to dismiss.” Id. (quoting Fernandez-Montes v.
Allied Pilots Ass’n, 987 F.2d 278, 284 (5th Cir. 1993)
(internal quotation marks omitted)). “Dismissal is appropriate when the plaintiff has not alleged ‘enough
facts to state a claim to relief that is plausible on its
face’ and has failed to ‘raise a right to relief above the
speculative level.’ ” Emesowum v. Hous. Police Dep’t,
561 F. App’x 372, 372 (5th Cir. 2014) (per curiam) (quoting Twombly, 550 U.S. at 555, 570, 127 S. Ct. 1955).

19a
Analysis
1.

The Ministerial Exception and Ecclesiastical
Abstention Doctrine
a. The Ministerial Exception

The NAMB first argues that the “ministerial
exception” bars McRaney’s claims. The “ministerial
exception” is a First Amendment doctrine that precludes court interference into “the employment relationship between a religious institution and its ‘ministers’.” Hosanna-Tabor Evangelical Lutheran Church
& Sch. v. E.E.O.C., 565 U.S. 171, 188 (2012) (emphasis
added). The purpose behind this exception is to prevent the state, through the enforcement of employment
laws and regulations, from “depriving the church of
control over the selection of those who will personify its
beliefs.” Id.
“Ministerial” in this context “does not depend
upon ordination but upon the function of the position”
Id. at 203 (Thomas, J., concurring)(citing Rayburn v.
General Conference of Seventh-Day Adventists, 772
F.2d 1164, 1168 (4th Cir. 1985)). The Supreme Court in
Hosanna-Tabor declined to apply a “rigid formula” to
determine which employees qualified as a minister. Instead, the Court looked a totality of the circumstances
analysis to find that the plaintiff, a teacher at a religious school, was a minister to whom the exception
would apply. The factors the court considered included
“the formal title given [the teacher] by the Church, the
substance reflected in that title, her own use of that title, and the important religious functions she performed for the Church” Id. at 192. The Fifth Circuit
likewise applied this analysis in Cannata v. Catholic
Diocese of Austin, 700 F.3d 169 (5th Cir. 2012). There
the Fifth Circuit found that the ministerial exception

20a
applied to a church music director. The Fifth Circuit
considered the “integral role in the celebration of Mass”
the plaintiff played by selecting music, teaching the
choir, and playing piano during the service. Id. at 178.
Turning to the case sub judice, NAMB argues
that because McRaney was the Executive Director of
the BCMD, his duties included “ministry direction,”
and that because McRaney was thus the employee
tasked with directing the ministry efforts of the
BCMD, he qualifies as a “minister” to whom the exception applies. The Court agrees, and finds that McRaney
is indeed the type of ministerial employee to whom the
exception potentially applies.
That does not end the Court’s analysis, however, because before the exception can be applied the
Court must also determine whether McRaney’s pending claims are the type to which this exception applies.
The Court holds they are not, and thus his claims are
not subject to dismissal under this exception. Specifically, every case the Court has reviewed in which the
ministerial exception was applied involved a plaintiff
who had been previously employed by the defendant
religious organization itself (and not just employed by a
related or affiliated organization). For instance, in Hosanna-Tabor, the dispute was one between a religious
school and a former teacher at that school itself. 565
U.S. at 177-78. In Cannata, the dispute was between a
church and its former music director. 700 F.3d at 17071. In fact, every case cited by the NAMB in support of
its motion involves a dispute between employer and
employee. See e.g., Conlon v. lnterVarsity Christian
Fellowship, 777 F.3d 829, 831 (6th Cir. 2015)(dispute
between college missionary organization and “spiritual
director” for the organization”); Rweyemamu v. Cote,
520 F.3d 198, 199-200 (2d. Cir. 2009)(dispute between

21a
Catholic diocese and priest); and Curl v. Beltsville Adventist School., 2016 WL 4382686, at *1 (D. Md., Aug.
15, 2016)(dispute between Seventh-Day Adventists
school and teacher). Further, even within the employer-employee relationship, this exception only prevents
claims that arise out of actual employment decisions
themselves, and not just related conduct. For example,
the Ninth Circuit held that a pastor terminated for
complaining of sexual harassment by her superiors
could not sue her former church employer for retaliatory termination without running afoul of the exception,
but could sue for the harassment itself. Elvig v. Calvin
Presbyterian Church, 375 F.3d 951, 966 (9th Cir. 2004).
Accordingly, in the case sub judice, because
McRaney was indisputably not employed by NAMB,
this is not a claim between employer and employee, is
not a claim that arises out of employment decisions
made by the sole Defendant NAMB, and thus the ministerial exception does not apply to mandate dismissal
of any of McRaney’s claims.
b.

The Ecclesiastical Abstention Doctrine

Next, the NAMB argues that the doctrine of
“ecclesiastical abstention” prevents the Court from resolving McRaney’s claims and mandates their dismissal.
First, the Court notes that while the parties equate the
ecclesiastical abstention doctrine with the ministerial
exception, they are in fact separate, albeit related,
principles. See, e.g. Gregorio v. Hoover, 238 F. Supp. 3d
37, 46 (D.D.C. 2017) (describing the ecclesiastical abstention doctrine as “separate but distinct from the
ministerial exception.”).
The ecclesiastical abstention doctrine is built
out of numerous Supreme Court cases affirming that
churches have the “power to decide for themselves,

22a
free from state interference, matters of church government as well as those of faith and doctrine.” Kedroff
v. St. Nicholas Cathedral of Russian Orthodox Church
in N. Am., 344 U.S. 94, 116 (1952). Thus, civil courts
are limited in deciding “religious controversies that incidentally affect civil rights.” E. Orthodox Diocese for
U. S. of Am. & Canada v. Milivojevich, 426 U.S. 696,
710 (1976). Courts may only decide “church disputes
over church polity and church administration” when
they can do so “without resolving underlying controversies over religious doctrine.” Id. (internal quotations omitted). Under this doctrine courts have:
consistently agreed that civil courts should not
review the internal policies, internal procedures, or internal decisions of the church, and
this includes review of whether a church followed its own internal policies or procedures.
See, e.g., Kral v. Sisters of the Third Order
Regular of St. Francis, 746 F.2d 450 (8th
Cir.1984) (“A claim of violation of the law of a
hierarchical church, once rejected by the
church’s judicial authorities, is not subject to
revision in the secular courts.”); Nunn v. Black,
506 F. Supp. 444, 448 (W.D.Va.1981) (stating
“the fact that local church may have departed
arbitrarily from its established expulsion procedure in removing [dissident church members]
was of no constitutional consequence”), aff’d
661 F.2d 925 (4th Cir.1981); Simpson v. Wells
Lamont Corp., 494 F.2d 490 (5th Cir.1974);
Burgess v. Rock Creek Baptist Church, 734 F.
Supp. 30 (D.D.C.1990).
Ginyard v. Church of God in Christ Kentucky First
Jurisdiction, Inc., 6 F. Supp. 3d 725, 729 (W.D. Ky.
2014).

23a
As for the ecclesiastical abstention doctrine’s
potential application to McRaney’s interference claims,
the Court cannot rule at this juncture that resolving
these claims will necessarily require the Court to decide “matters of religious doctrine.” While this is a dispute between members of the same religious denomination, it is not one which, on the face of the complaint,
involves a review of “internal policies, internal procedures, or internal decisions of the church.” Id (emphasis added). The claims of the complaint relate to the
NAMB’s external actions toward separate autonomous
organizations, rather than internal decisions within the
hierarchy of a single organization. Therefore, at this
juncture the Court will decline to apply the ecclesiastical abstention doctrine to McRaney’s claims for intentional interference with business relations, and those
claims are not subject to dismissal based on this doctrine.
As for McRaney’s claim for defamation and the
ecclesiastical abstention doctrine, McRaney contends
that the NAMB defamed him when its president,
Dr. Ezell, told various leaders of the BCMD that
McRaney refused to discuss the updated partnership
agreement. Pl. Comp. at 4, 6. McRaney claims that he
attempted to do so, and that it was NAMB leadership
that refused to meet with him. Id. at 4. McRaney
claims this disparaged him in the eyes of BCMD leadership and contributed to his termination. Id.
To prove defamation under Mississippi law, a
plaintiff must show:
(a) a false statement that has the capacity to injure the plaintiff’s reputation; (b) an unprivileged publication, i.e., communication to a third
party; (c) negligence or greater fault on part of

24a
publisher; and (d) either actionability of statement irrespective of special harm or existence
of special harm caused by publication.
Mayweather v. Isle of Capri Casino, Inc., 996 So.2d
136, 139 (Miss. Ct. App 2008)(citing Speed v. Scott, 787
SO.2d 626,631 (Miss. 2001)).
The NAMB argues that adjudicating
McRaney’s defamation claim would require the Court
to decide matters of internal church governance and
that the ecclesiastical abstention doctrine thus bars the
claims. The NAMB cites two cases to support its proposition.
The first is Klagsbrun v. Va’ad Harabonim of
Greater Monsey, 53 F.Supp.2d 732, (D.N.J.1999). In
that case, the plaintiff, a member of an Orthodox Jewish congregation, sued a group of Rabbis for publishing
a false statement about the plaintiff’s marriage and divorce. Id. at 734-735. The plaintiff alleged that the notice charged the plaintiff with “bigamy,” “failing to
comply with an order of a rabbinical court,” and “failing
to submit to the jurisdiction of a rabbinical court.” Id.
at 740-41. The Klagsbrun court found that to resolve
the case, it would need to determine not just factual issues, such as whether the plaintiff had failed to comply
with a rabbinical court order, but also whether that
failure was a sin “within the Orthodox Jewish faith
which lead to the imposition of the punishment of shunning.” Id.at 741. The court could not engage in purely
secular analysis, such as determining was factually engaged in bigamy, but whether he was engaged in bigamy “within the meaning of the Orthodox Jewish faith.”
Id. These questions, the court held, could only be decided by an inquiry into religious doctrine, an imper-

25a
missible inquiry under the First Amendment. Thus,
the plaintiff’s claims were dismissed.
In the second case, Horne v. Andrews, 589 S.E.
2d 719 (Ga. Ct. App. 2003), the plaintiff, a church pastor, sued another church official for defamation. The
church official had prepared a document which he gave
to another church official accusing the pastor of “refus[ing] to follow the United Methodist Discipline; failing to visit members who were ill or otherwise unable
to attend church; failing to participate in the church’s
stewardship campaign; failing to meet or communicate
with other church leaders; failing to raise funds for the
church; and inappropriate behavior.” Id. at 720. According to the Georgia Court of Appeals, determining
whether these statements were libelous would require
the court to “inquire into church policy regarding such
matters as a pastor’s role in participating in stewardship programs, the proper use of church funds, and the
proper time for a pastor to arrive at church.” The court
could not do so, and therefore ruled that dismissal of
the claims was appropriate. Id.
In the case sub judice, to determine whether
the subject statements were defamatory this Court
must determine, among other things: (1) whether
McRaney refused to meet with NAMB officials to discuss the new partnership agreement; and, if not, (2)
whether McRaney was harmed by the false statements.
While the first inquiry is clearly a pure factual matter,
the NAMB contends that resolving the second inquiry
would entangle the Court in matters of the BCMD’s
and NAMB’s internal governance and thus the claim
should be dismissed.
The Court disagrees. First, unlike the court in
Klagsbrun, this Court would not need to decide mat-

26a
ters of pure religious doctrine such as what constitutes
a valid religious divorce or a rabbinical court order.
Second, while this case is much more similar to Horne,
the nature of the alleged harm would not require this
Court to decide any parameters or issues of proper
church governance. In Horne, the plaintiff pastor alleged that the defamatory statements subjected him to
“humiliation, ridicule, contempt, and emotional distress
and caused his ministry as pastor to suffer suspicion.”
589 S.3d 2d at 721. Because he did not allege any “special harm,” but rather only general damages, those
statements would only be actionable if they constituted
defamation per se. Thus to determine whether the
statements were defamatory, the Horne court was required to determine whether the statements about the
pastor were “injurious on their face.” See Bellemead,
LLC v. Stoker, 631 .S.E.2d 693, 695 (Ga. 2006) (defining
“slander per se” under Georgia law). And to do that,
the court would necessarily be required to determine
what constituted “appropriate behavior” for a pastor—
a clear inquiry into religious practice.
In the case sub judice, however, McRaney has
pled specific harm—that the alleged defamatory statements contributed to his termination. See Speed, 787
So.3d at 632 (“Special harm is the loss of something
having economic or pecuniary value.”)(internal quotations omitted). Accordingly, to determine whether
McRaney’s claim has merit, the Court need only decide
whether the statements about McRaney were false and
whether they caused his termination, neither of which
will require the Court to delve into any religious practices or matters of internal church governance. Thus,
on the face of the complaint, the Court can adjudicate
this claim without delving into impermissible religious
inquiries, the ecclesiastical exception therefore does not

27a
apply, and NAMB’s motion to dismiss this claim on this
basis is denied.
2.

Whether McRaney Has Adequately Pled His
Claims under Rule 12(b)(6)

As noted above, under Rule 12(b)(6) a complaint “must contain sufficient factual matter, accepted
as true, to ‘state a claim to relief that is plausible on its
face.’ ” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct.
1937, 173 L. Ed. 2d 868 (2009) (quoting Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955, 167 L.
Ed. 2d 929 (2007)). NAMB asserts that McRaney has
not met this standard with respect to his claims for intentional interference with contractual relationships or
his claim for intentional infliction of emotional distress,
and thus those claims should face dismissal.
a. McRaney’s Claims of Intentional Interference with Contractual Relationships
In his Complaint, McRaney asserts that there
are three separate incidents where the NAMB intentionally interfered with business relationships he held
with other parties. First, he alleges that the NAMB
intentionally interfered with his contractual employment relationship with the BCMD by threatening to
withhold funds from the BCMD unless they fired
McRaney. Pl. Comp. at 6. Second and third, he alleges
that the NAMB tortiously sought to have him removed
from two unaffiliated speaking engagements in Mississippi and Florida. Id. at 6-7.
Under Mississippi law, the elements of intentional interference with a contractual relationship are:
“(1) that the acts were intentional and willful; (2) that
they were calculated to cause damage to the plaintiff in
his/her lawful business; (3) that they were done with

28a
the unlawful purpose of causing damage and loss, without right or justifiable cause on the part of the defendant (which acts constitute malice); (4) that actual damage or loss resulted,” and “(5) the defendant’s acts were
the proximate cause of the loss or damage suffered by
the plaintiff.” Scruggs, Millette, Bozeman & Dent, P.A.
v. Merkel & Cocke, P.A., 910 So.2d 1093, 1098-99
(Miss.2005). To succeed a plaintiff “must prove that the
contract would have been performed but for the alleged
interference.” Id. (internal citations omitted).
Because an essential element is that the plaintiff suffer some damage or loss, the Court holds that
McRaney’s claim that the NAMB intentionally interfered with his scheduled appearance at the Florida Pastor’s Conference fails.1 Despite the NAMB’s actions,
McRaney admits that his speech in Florida was not
canceled and he therefore did not suffer damages.
McRaney therefore cannot state a claim for interference with that relationship and that claim shall be dismissed.
In regard to McRaney’s other two claims for intentional inference, the Court finds that he has met his
initial pleading burden and that dismissal of those

1

Though not discussed by the parties, it is not clear to the
Court whether Florida or Mississippi law should apply to
McRaney’s Florida-based claim. In any event, because it is also a
requirement under Florida law that the plaintiff suffer damages,
dismissal of this claim is warranted under both Mississippi and
Florida law. Farah v. Canada, 740 So. 2d 560, 561 (Fla. Dist. Ct.
App. 1999)(“The elements of the tort of intentional interference
[with a contract] [under Florida law] are: 1) the contract; 2) the
wrongdoer’s knowledge thereof; 3) his intentional procurement of
its breach; 4) the absence of justification; and 5) damages.”)(internal quotation omitted).

29a
claims at this juncture is thus inappropriate.2 First,
with regard to his relationship to the BCMD, McRaney
has alleged that the NAMB intentionally acted to have
the BCMD fire him, and that he was actually fired as a
result of NAMB’ s actions. These allegations are sufficient at this juncture to state a claim for intentional interference under these alleged facts. Second, he has
sufficiently alleged that the NAMB intentionally
sought to have his speech in Louisville, Mississippi,
cancelled and that it was actually cancelled as a result,
thus causing him damage. These allegations are likewise sufficient to state a claim for intentional interference at this juncture. Accordingly, the Court shall deny the NAMB’s motion to dismiss these two interference claims.
b.

McRaney’s Claim for Intentional Infliction of Emotional Distress

Finally, McRaney alleges that the NAMB intentionally inflicted him with emotional distress by
2

The laws of Mississippi, Delaware, and Maryland are similar
such that McRaney has met his pleading burden under all three,
regardless of which ultimately applies to each claim. See, e.g.,
Malpiede v. Townson, 780 A.2d 1075, 1099 (Del. 2001)(Elements of
tortious interference with a business relationship are “(a) the reasonable probability of a business opportunity, (b) the intentional
interference by defendant with that opportunity, (c) proximate
causation, and (d) damages … . [applied] in light of a defendant’s
privilege to compete or protect his business interests in a fair and
lawful manner.”); Blondell v. Littlepage, 991 A.2d 80, 97 (Md.
2010)(“A claim for intentional interference with contractual or
business relations requires the following elements:(1) intentional
and willful acts; (2) calculated to cause damage to the plaintiffs in
their lawful business; (3) done with the unlawful purpose to cause
such damage and loss, without right or justifiable cause on the part
of the defendants (which constitutes malice); and (4) actual damage
and loss resulting.”)

30a
placing a photograph of him in the NAMB’s headquarters with a caption that said “he was not to be trusted
and [is] public enemy #1 of NAMB.” Pl. Comp. at 7.
To prevail on a claim for intentional infliction of
emotional distress under Mississippi law, the plaintiff
must show:
(1) the defendant acted willfully or wantonly
toward the plaintiff by committing certain described actions; (2) the defendant’s acts are
ones that evoke outrage or revulsion in civilized society; (3) the acts were directed at, or
intended to cause harm to, the plaintiff; (4) the
plaintiff suffered severe emotional distress as a
direct result of the acts of the defendant; and
(5) such resulting emotional distress was foreseeable from the intentional acts of the defendant.
Rainer v. Wal-Mart Assocs. Inc., 119 So.3d 398, 403-04
(Miss. Ct. App. 2013) (citing J.R. ex rel. R.R. v. Malley,
62 So.3d 902, 906-07 (Miss. 2011)).
In order to state such a claim, the defendant’s
alleged conduct must be “so outrageous in character,
and so extreme in degree, as to go beyond all possible
bounds of decency, and to be regarded as atrocious, and
utterly intolerable in a civilized community.” Bowden
v. Young, 120 So. 3d 971, 980 (Miss. 2013)(citing Pegues
v. Emerson Elec. Co., 913 F. Supp. 976, 982 (N.D. Miss.
1996)). This liability will not extend to “insults, indignities, threats, annoyances, petty oppression, or other
trivialities.” Pegues, 913 F.Supp at 982.
The Court finds that McRaney has facially met
his pleading burden at this stage. He has alleged that
NAMB employees acted intentionally when they placed

31a
the photograph of him at NAMB headquarters, that the
NAMB did so to cause him emotional distress by impugning his reputation and character, and that he suffered emotional distress as a result. Given the circumstances of the photograph and the location where it was
allegedly posted, the Court find that McRaney has, at a
minimum, facially stated a plausible claim for relief for
intentional infliction of emotional distress related to
this incident, and this claim shall therefore proceed.
CONCLUSION
For the reasons stated above, the Court holds
that McRaney has failed to adequately plead Count IV
of his complaint, for intentional interference with business relations, in relation to a speaking engagement in
Florida. That claim shall be dismissed pursuant to Rule
12(b)(6).
As for McRaney’s remaining claims, the ministerial exception “precludes application of [employment]
legislation to claims concerning the employment relationship between a religious institution and its ministers. Hosanna-Tabor, 575 U.S. at 188. Because the relationship between McRaney and the NAMB was not
one of employee-employer, that exception is inapplicable to McRaney’s remaining claims and does not subject
the claims to dismissal. Further, McRaney’s claims, as
stated on the face of the Complaint, will not require the
Court to impermissibly inquire into religious doctrine
and practice, although the factual development of this
case may later prove otherwise. Thus, the Court will
not apply the ecclesiastical abstention doctrine to dismiss McRaney’s remaining claims at this time. Finally,
the Court finds that McRaney has adequately pled two
claims for intentional interference with contractual relations, as set forth above, and has adequately pled a

32a
claim for intentional infliction of emotional distress.
Those claims are not subject to dismissal under Rule
12(b(6), and the Defendant’s motion to dismiss those
claims shall be denied.
An order in accordance with this opinion shall
issue this day.
THIS, the 18th of January, 2018.
signature________________________
SENIOR U.S. DISTRICT JUDGE

33a
APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF MISSISSIPPI
ABERDEEN DIVISION
Civil Action No. 1:17-cv-00080-GHD-DAS
WILL MCRANEY,
Plaintiff,
v.
THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION
Defendant.
MEMORANDUM OPINION
This matter is before the Court on Defendant The
North American Mission Board’s motion for summary
judgment [48] and the Court’s order to show cause [60]
why the Court should not remand for lack of subject
matter jurisdiction. For the reasons set forth below,
the Court dismisses this case for lack of subject matter
jurisdiction.
Background
Plaintiff Will McRaney, the former Executive Director of the Baptist Convention of Maryland and Delaware (“BCMD”), sued the North American Mission
Board of the Southern Baptist Convention (“NAMB”)
in the Circuit Court of Winston County, Mississippi.
McRaney alleges that the NAMB defamed him and tor-

34a
tiously interfered with his employment with the BCMD
resulting in his termination.
The NAMB removed to this Court premising federal jurisdiction on diversity of citizenship under 28
U.S.C § 1332. The NAMB then filed a motion to dismiss for failure to state claim, arguing that the ecclesiastical abstention doctrine required dismissal. The ecclesiastical abstention doctrine prohibits courts from
reviewing “internal policies, internal procedures, or internal decisions of the church.” Ginyard v. Church of
God in Christ Kentucky First Jurisdiction, Inc., 6 F.
Supp. 3d 725, 729 (W.D. Ky. 2014). Under the doctrine,
courts may only decide “disputes over church polity
and church administration” when they can do so “without resolving underlying controversies over religious
doctrine.” E. Orthodox Diocese for U. S. of Am.
& Canada v. Milivojevich, 426 U.S. 696, 710, 96 S.Ct
2372, 49 L.3d.2d 151 (1976) (internal quotations omitted).
Because the NAMB moved for dismissal under
l2(b)(6), the Court reviewed its request under that
standard and found that based on the allegations of the
complaint alone, the Court could not say that review of
this case would necessarily entangle the Court in matters of religious doctrine.1 The ecclesiastical abstention
doctrine is treated by most courts, however, as jurisdictional. See, e.g., Myhre v. Seventh-Day Adventist
Church Reform Movement Am. Union Int’l Missionary Soc’y, 719 F. App’x 926, 928 (11th Cir. 2018); Gregorio v. Hoover, 238 F. Supp. 3d 37, 46 (D.D.C. 2017);
Kelley v. Decatur Baptist Church, No. 5:17-CV-12391

The Court did dismiss one count of tortious interference because McRaney failed to plead that he had suffered damages.

35a
HNJ, 2018 WL 2130433, at *2 (N.D. Ala. May 9, 2018).
This is the case within the Fifth Circuit. See Simpson
v. Wells Lamont Corp., 494 F.2d 490 (5th Cir. 1974)
Defendant reasserted the application of the doctrine as to counts I and II of the complaint in a motion
for summary judgment. The Court, now recognizing
the jurisdictional nature of the doctrine, ordered the
parties to show cause why the matter should not be
remanded back to state court for lack of subject matter
jurisdiction. See 28 U.S.C. § 1447(c) (In case removed
to federal court, “[i]f at any time before final judgment
it appears that the district court lacks subject matter
jurisdiction, the case shall be remanded.”) The parties
responded, and the Court now considers whether it has
subject matter jurisdiction over McRaney’s claims.
12(b)(1) Subject Matter Jurisdiction Standard
The Court has a continuing duty to assess its subject matter jurisdiction through all phases of the litigation. Arbaugh v. Y&H Corp., 546 U.S. 500, 501, 126 S.
Ct. 1235, 163 L. Ed. 2d 1097 (2006). Thus, the Court
converts the NAMB’s motion to summary judgment to
a Rule 12(b)(1) motion to dismiss for lack of subject
matter jurisdiction. See Simpson v. Wells Lamont
Corp., 494 F.2d 490, 492 (5th Cir. 1974) (affirming the
district court’s dismissal for of pastor’s claims against
church defendants under the ecclesiastical abstention
doctrine and noting the district court treated motion
for summary judgment as a motion to dismiss for lack
of subject matter jurisdiction.)
The Fifth Circuit has instructed:
A case is properly dismissed for lack of
subject matter jurisdiction when the court
lacks the statutory or constitutional power

36a
to adjudicate the case. In considering a
challenge to subject matter jurisdiction,
the district court is free to weigh the evidence and resolve factual disputes in order
to satisfy itself that it has the power to
hear the case. Thus, under Rule 12(b)(1),
the district court can resolve disputed issues of fact to the extent necessary to determine jurisdiction[.]
Smith v. Reg’l Transit Auth., 756 F.3d 340, 347 (5th Cir.
2014) (quotation marks and citation omitted). In ruling
on a rule 12(b)(1) motion to dismiss, the Court can consider: “(1) the complaint alone; (2) the complaint supplemented by undisputed facts evidenced in the record;
or (3) the complaint supplemented by undisputed facts
plus the court’s resolution of disputed facts.” Tsolmon
v. United States, 841 F.3d 378, 382 (5th Cir. 2016) (internal quotation marks and citation omitted).
Analysis
I.

Application of the Ecclesiastical Abstention
Doctrine

The ecclesiastical abstention doctrine, rooted in the
First Amendment’s free exercise clause, is built out of
numerous Supreme Court cases affirming that churches have the “power to decide for themselves, free from
state interference, matters of church government as
well as those of faith and doctrine.” Kedroff v. St.
Nicholas Cathedral of Russian Orthodox Church in N.
Am., 344 U.S. 94, 116 73 S. Ct. 143, 97 L. Ed. 120 (1952).
Thus, civil courts are limited in deciding “religious controversies that incidentally affect civil rights.” Milivojevich, 426 U.S. at 710. Courts may only decide “church
disputes over church polity and church administration”

37a
when they can do so “without resolving underlying controversies over religious doctrine.” Id. (internal quotations omitted). Under this doctrine courts have:
consistently agreed that civil courts should
not review the internal policies, internal
procedures, or internal decisions of the
church, and this includes review of whether
a church followed its own internal policies
or procedures. See, e.g., Kral v. Sisters of
the Third Order Regular of St. Francis, 746
F.2d 450 (8th Cir. 1984) (“A claim of violation of the law of a hierarchical church,
once rejected by the church’s judicial authorities, is not subject to revision in the
secular courts.”); Nunn v. Black, 506
F. Supp. 444, 448 (W.D. Va. 1981) (stating
“the fact that local church may have departed arbitrarily from its established expulsion procedure in removing [dissident
church members] was of no constitutional
consequence”), aff’d 661 F.2d 925 (4th Cir.
1981); Simpson v. Wells Lamont Corp., 494
F.2d 490 (5th Cir. 1974); Burgess v. Rock
Creek Baptist Church, 734 F. Supp. 30
(D.D.C. 1990).
Ginyard, 6 F. Supp. 3d at 729 (W.D. Ky. 2014).
Considering all the facts available to it, and not just
those in the complaint, the Court finds that this case
would delve into church matters. McRaney first contends that the NAMB defamed him to the BCMD and
tortiously interfered with his employment agreement
with the BCMD and that, as a result, he was fired. To
prove a defendant tortiously interfered with a business
relationship, the plaintiff must show “(1) that the acts

38a
were intentional and willful; (2) that they were calculated to cause damage to the plaintiff in his/her lawful
business; (3) that they were done with the unlawful
purpose of causing damage and loss, without right or
justifiable cause on the part of the defendant (which
acts constitute malice); (4) that actual damage or loss
resulted,” and “(5) the defendant’s acts were the proximate cause of the loss or damage suffered by the plaintiff.” Scruggs, Millette, Bozeman & Dent, P.A. v. Merkel & Cocke, P.A., 910 So.2d 1093, 1098–99 (Miss. 2005).
To prove those claims, McRaney has already attempted to obtain from the BCMD his entire personnel
file by subpoena. Review of these claims will require
the Court to determine why the BCMD fired
McRaney—whether it was for a secular or religious
purpose. It will require the Court to determine whether the NAMB’s actions were done “without right or
justifiable cause”—in other words, whether the NAMB
had a valid religious reason for its actions. That the
Court cannot do.
McRaney also claims that as a result of the
NAMB’s interference, he was disinvited to speak at a
religious event in Louisville, Mississippi. Again, review
of this claim would require the Court to determine if
the event canceled McRaney’s speech for a valid religious reason. It would even require the Court to determine if the NAMB’s efforts to stop the speech were
tortious or if they were a valid exercise of religious belief. That matter the Court cannot decide.
Finally, McRaney claims that the NAMB intentionally inflicted emotional distress upon him by displaying a picture of him at its headquarters which stated “that he was not be trusted and public enemy #1 of
NAMB.” Compl. at 6. A plaintiff seeking to establish

39a
an intentional infliction of emotional distress must show
that “(1) the defendant acted willfully or wantonly toward the plaintiff by committing certain described actions; (2) the defendant’s acts are ones that evoke outrage or revulsion in civilized society; (3) the acts were
directed at, or intended to cause harm to, the plaintiff;
(4) the plaintiff suffered severe emotional distress as a
direct result of the acts of the defendant; and (5) such
resulting emotional distress was foreseeable from the
intentional acts of the defendant.” Rainer v. Wal-Mart
Assocs. Inc., 119 So.3d 398, 403-04 (Miss. Ct. App.
2013). Once again, to resolve these issues, the Court
will need to make determinations about why the
NAMB held these opinions of McRaney, and because
the NAMB is a religious institution, the question will
touch on matters of religious belief. The Court, therefore, finds that under the First Amendment it lacks
subject matter jurisdiction to adjudicate McRaney’s
disputes.
II. Dismissal vs. Remand
28 U.S.C. § 1447(c) provides that “If at any time before final judgment it appears that the district court
lacks subject matter jurisdiction, the case shall be remanded” (emphasis added). Nonetheless, the Fifth
Circuit have recognized that “that dismissal, rather
than remand, may be proper if a suit is a local action
over which the state court in which it was brought also
would lack jurisdiction.” Boaz Legacy, L.P. v. Roberts,
628 F. App’x 318, 320 (5th Cir. 2016) (citing Trust Co.
Bank v. United States Gypsum Co., 950 F.2d 1144, 1148
(5th Cir. 1992)). The NAMB urges this Court to dismiss McRaney’s claims because, it argues, the state
courts of Mississippi would also lack subject-matter ju-

40a
risdiction under the ecclesiastical abstention doctrine.2
See Mallette v. Church of God Int’l, 789 So. 2d 120, 123
(Miss. Ct. App. 2001).
The futility exception applies when it is doubtless
that the state court also lacks jurisdiction. For example, in Boaz, the plaintiff sued the defendant over the
ownership of a tract of land in Texas state court. Boaz,
627 F. App’x at 319. The land was not located in Texas,
however, but in Oklahoma. Id. The defendant removed
the action to a Texas district court and then moved to
dismiss. Id. The district court dismissed the case for
lack of jurisdiction, and the Fifth Circuit affirmed. Id.
The “local action doctrine” which states that a court
“lacks jurisdiction over the subject matter of claims to
land located outside the state in which the court sits,”
applied, and it applied in equally in state and federal
courts. Id. (internal quotations and citations omitted).
Because the land was in Oklahoma, both federal and
state courts in Texas lacked jurisdiction over the claims
to its ownership. Id. Thus, the Fifth Circuit held, the
district court appropriately dismissed the case.
Likewise, in Hill v. United States, the plaintiff, a
court-appointed conservator for a veteran, sued in state
court challenging the Department of Veteran Affairs’
determination that the veteran’s VA benefits were to
be managed by a VA-appointed fiduciary. No. 5:18-CV21-DCB-MTP, 2018 WL 1902375, at *1 (S.D. Miss. Apr.
20, 2018). The government removed to federal court
2

In its show cause order, the Court also directed McRaney to
address why the case should not be remanded for lack of subject
matter jurisdiction based on the application of the ecclesiastical
abstention doctrine. McRaney’s response, however, asserted only
that jurisdiction was proper because the requirements for diversity of citizenship jurisdiction had been met.

41a
and then moved to dismiss. Id. The district court
agreed that dismissal was appropriate because the
Veterans’ Judicial Review Act, 38 U.S.C. § 511, vested
exclusive jurisdiction over review of VA benefits decisions to a few specific courts, none which were the district court or the state court from which the cases removed. Id. at *3. Thus, the court dismissed under the
futility exception. Id. at 4–5.
The Court agrees that the state court also clearly
lacks subject matter jurisdiction. Like the local application doctrine in Boaz, the ecclesiastical abstention
doctrine applies in both state and federal courts. Mallette, 789 So. 2d at 123. (“A civil court is forbidden, under the First and Fourteenth Amendments to the
United States Constitution, from becoming involved in
ecclesiastical disputes.”) If this court lacks jurisdiction
to hear McRaney’s claims because they involve ecclesiastical disputes, then all civil courts lack jurisdiction.
Thus, on remand, the state trial court would likewise be
compelled to dismiss under the doctrine. Accordingly,
the Court finds that this matter should be dismissed
rather than remanded.
An order in accordance with this opinion shall issue.
This, the 22nd day of March 2019.
signature________________________
SENIOR U.S. DISTRICT JUDGE

42a
APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF MISSISSIPPI
ABERDEEN DIVISION
Civil Action No. 1:17-cv-00080-GHD-DAS
WILL MCRANEY,
Plaintiff,
v.
THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION
Defendant.
ORDER DISMISSING CASE
For the reasons set forth in the memorandum opinion issued this day, it is ORDERED that:
1. Defendant North American Mission Board’s
motion for summary judgement [48] is converted into a
motion to dismiss for lack of subject matter jurisdiction
and is GRANTED;
2. Plaintiff Will McRaney’s claims are DISMISSED for lack of subject matter jurisdiction;
3. The North American Mission Board’s pending
motion to strike [56] is DENIED AS MOOT; and
4.

This case is CLOSED.

SO ORDERED, this, the 22nd day of April 2019.
signature________________________
SENIOR U.S. DISTRICT JUDGE

43a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-60293
WILL MCRANEY,
Plaintiff-Appellant,
versus
THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION, INCORPORATED,
Defendant-Appellee.
Filed November 25, 2020
Appeal from the United States District Court
for the Northern District of Mississippi
USDC No. 1:17-CV-80
ON PETITION FOR REHEARING EN BANC
(Opinion - 7/16/2020, 5 CIR., ____, ____, F.3D _______)
Before CLEMENT, HIGGINSON, and ENGELHARDT, Circuit Judges.
PER CURIAM:
The court having been polled at the request of one
of its members, and a majority of the judges who are in
regular active service and not disqualified not having
voted in favor (Fed. R. App. P. 35 and 5th Circ. R. 35),
the petition for rehearing en banc is DENIED.

44a
In the en banc poll, 8 judges voted in favor of rehearing (Judges Jones, Smith, Elrod, Willett, Ho, Duncan, Oldham, and Wilson), and 9 judges voted against
rehearing (Chief Judge Owen and Judges Stewart,
Dennis, Southwick, Haynes, Graves, Higginson, Costa,
and Engelhardt).
ENTERED FOR THE COURT:

signature
STEPHEN A. HIGGINSON
United States Circuit Judge

45a
JAMES C. HO, Circuit Judge, joined by JONES, SMITH,
ELROD, WILLETT, and DUNCAN, Circuit Judges, dissenting from denial of rehearing en banc:
If religious liberty under our Constitution means
anything, it surely means at least this much: that the
government may not interfere in an internal dispute
over who should lead a church—and especially not
when the dispute is due to conflicting visions about the
growth of the church. But it turns out that nothing is
sacred, for that is precisely what we are doing here.
The First Amendment forbids government intrusion in “matters of church government.” Our Lady of
Guadalupe Sch. v. Morrissey-Berru, 140 S. Ct. 2049,
2060 (2020). It secures church “autonomy with respect
to internal management decisions that are essential to
the institution’s central mission.” Id. “And a component of this autonomy is the selection of the individuals
who play certain key roles.” Id.
This case falls right in the heartland of the church
autonomy doctrine. A former Southern Baptist minister brought this suit to protest his dismissal from
church leadership. That fact alone should be enough to
bar this suit. As the saying goes, personnel is policy.
Moreover, this case proves the truth of that old adage. The complaint acknowledges that the plaintiff was
dismissed because he “consistently declined to accept”
church policy regarding “the specific area of starting
new churches, including the selection, assessing and
training of church planters.” He even admits that “this
cause of action had its roots in Church policy.” We
should take him at his word. This case is a dispute over
a church’s vision for spreading “the gospel of Jesus
Christ through evangelism and church planting”—a
fundamental tenet of faith, not just for the defendant in

46a
this suit, but for hundreds of millions of evangelicals
around the world. Put simply, this suit puts the
church’s evangelism on trial.
Not surprisingly, the district court dismissed this
suit as barred by the First Amendment. We should
have affirmed that decision. But the panel did the opposite. I respectfully dissent from the denial of rehearing en banc.
I.
The following facts are taken directly from Plaintiff’s complaint and the strategic partnership agreement (“SPA”) that gives rise to this dispute: The Baptist Convention for Maryland/Delaware (“Maryland/Delaware”) is a state convention comprised of 560
Baptist churches that works in cooperation with the
Southern Baptist Convention (“SBC”). The North
American Mission Board (“North America”) is a subdivision of the SBC that “exists to work with churches,
associations and state conventions in mobilizing Southern Baptists as a missional force to impact North
America with the gospel of Jesus Christ through evangelism and church planting.” Its priorities include assisting churches in “planting healthy, multiplying,
evangelistic SBC churches,” “appointing, supporting,
and assuring accountability for missionaries,” and
“providing missions education and coordinating volunteer missions opportunities for church members.”
Maryland/Delaware and North America have
worked together for some time under the terms of the
SPA—a religious document whose stated purpose is “to
define the relationships and responsibilities of [Maryland/Delaware] and [North America] in areas where
the two partners jointly develop, administer and evalu-

47a
ate a strategic plan for penetrating lostness through
church planting and evangelism.”
Plaintiff Will McRaney is an ordained minister. As
the former executive director of Maryland/Delaware,
he guided the direction of the ministry and organization, as well as the screening and managing of all staff.
He also served as Maryland/Delaware’s designated
representative in SPA negotiations with North America.
In 2014, North America drafted a new SPA that
“gave [North America] more controls over the financial
resources and the hiring, supervising and firing of staff
positions of the state conventions.” North America
then began pressuring Maryland/Delaware—and
McRaney in particular—to accept the new SPA. But
McRaney “consistently declined to accept the newly
written SPA.” He “view[ed] the proposed SPA as a
weakening of the autonomy of [Maryland/Delaware]
and the relinquishment of all controls to [North America] in the specific area of starting new churches, including the selection, assessing and training of church
planters.”
In response, North America worked to oust
McRaney from his church leadership position. It advised other Maryland/Delaware leaders that he had repeatedly refused to meet with North America’s President. It also threatened to withhold all funding from
Maryland/Delaware unless Maryland/Delaware dismissed McRaney and accepted the new SPA. As
McRaney puts it, North America leaders “g[ave] a oneyear notice of cancellation” of the previous SPA, and
“set[] forth in [a] letter … false and libelous accusations
against [McRaney]”—all “[a]s a direct result of [his] refusal to accept the new SPA.” After a series of meet-

48a
ings with North America, Maryland/Delaware terminated McRaney.
McRaney filed this suit alleging that North America interfered with his contract with Maryland/Delaware and caused his termination. He also
claims that North America lobbied another religious
group to disinvite him from speaking at a large mission
symposium in Mississippi. Finally, he contends that
North America defamed him and caused him emotional
distress by posting a photo of him in its headquarters’
reception area that “communicate[d] he was not to be
trusted and [was] public enemy #1.”
The district court dismissed the suit under the
First Amendment, reasoning that McRaney’s claims
would presumably require the court to determine
whether North America had “valid religious reason[s]”
for its actions. McRaney v. N. Am. Mission Bd. of the
S. Baptist Convention, 2019 WL 1810991, at *3 (N.D.
Miss. Apr. 24, 2019).
But a panel of this court reversed, holding that
“[t]he district court’s dismissal was premature” because it is “not certain that resolution of McRaney’s
claims will require the court to interfere” with “purely
ecclesiastical questions”—“matters of church government, matters of faith, or matters of doctrine.”
McRaney v. N. Am. Mission Bd. of the S. Baptist Convention, Inc., 966 F.3d 346, 350-51 (5th Cir. 2020).
II.
“The First Amendment protects the right of religious institutions ‘to decide for themselves, free from
state interference, matters of church government as
well as those of faith and doctrine’”—as the Supreme
Court has repeatedly held, and reminded us again just

49a
this year. Guadalupe, 140 S. Ct. at 2055 (quoting
Kedroff v. Saint Nicholas Cathedral of Russian Orthodox Church in N. Am., 344 U.S. 94, 116 (1952)). See also Hosanna-Tabor Evangelical Lutheran Church &
Sch. v. EEOC, 565 U.S. 171, 186 (2012); Serbian E. Orthodox Diocese for U.S. & Canada v. Milivojevich, 426
U.S. 696, 721-22 (1976); Watson v. Jones, 80 U.S. 679,
733-34 (1871). The church autonomy doctrine “does not
mean that religious institutions enjoy a general immunity from secular laws.” Guadalupe, 140 S. Ct. at 2060.
“[B]ut it does protect their autonomy with respect to
internal management decisions that are essential to the
institution’s central mission.” Id.
So the district court was right to dismiss this suit,
because each of the three actions taken by the religious
organizations that McRaney wishes to challenge here—
decisions about whom to place in leadership, whom to
host at a religious conference, and whom to exclude
from one’s headquarters—is an “internal management
decision[] that [is] essential to the institution’s central
mission.” Id. Each of these claims involves internal,
“purely ecclesiastical” matters of church governance
that federal courts have no business adjudicating. Watson, 80 U.S. at 733. See id. (describing certain matters
as “strictly and purely ecclesiastical in … character, …
over which the civil courts exercise no jurisdiction,” including “matter[s] which concern[] theological controversy, church discipline, ecclesiastical government, or
the conformity of the members of the church to the
standard of morals required of them”) (emphasis added).
For example, “the authority to select and control
who will minister to the faithful”—that is, deciding who
will lead and who will speak—“is the church’s alone”
because it is “a matter ‘strictly ecclesiastical.’” Hosan-

50a
na-Tabor, 565 U.S. at 195 (quoting Kedroff, 344 U.S. at
119). As a unanimous Supreme Court made clear,
“[r]equiring a church to accept or retain an unwanted
minister, or punishing a church for failing to do so, …
interferes with the internal governance of the church,
depriving the church of control over the selection of
those who will personify its beliefs.” Id. at 188 (emphasis added). After all, “imposing an unwanted minister”
or “[a]ccording the state the power to determine which
individuals will minister to the faithful” violates both
“the Free Exercise Clause, which protects a religious
group’s right to shape its own faith and mission through
its appointments,” and “the Establishment Clause,
which prohibits government involvement in such ecclesiastical decisions.” Id. at 188-89. See also Guadalupe,
140 S. Ct. at 2060 (“[A] church’s independence on matters of faith and doctrine requires the authority to select, supervise, and if necessary, remove a minister
without interference by secular authorities.”) (quotations omitted); Simpson v. Wells Lamont Corp., 494
F.2d 490, 492 (5th Cir. 1974) (“Certainly a congregation’s determination as to who shall preach from the
church pulpit is at the very heart of the free exercise of
religion.”).
Likewise, a religious organization’s decision to exclude and communicate internally about a former affiliate is a protected “internal management decision.” See,
e.g., Hosanna-Tabor, 565 U.S. at 201 (Alito, J., concurring) (explaining that “control over [certain] employees” is an “essential component” of a religious group’s
“freedom to speak in its own voice, both to its own
members and to the outside world”) (quotations omitted); Watson, 80 U.S. at 733 (“[C]ivil courts exercise no
jurisdiction” over “matter[s] which concern[] … church
discipline, ecclesiastical government, or the conformity

51a
of members of the church to the standard of morals required of them … . ”); Whole Woman’s Health v. Smith,
896 F.3d 362, 373 (5th Cir. 2018) (refusing to compel
discovery of a third-party religious group’s “internal
communications” in part because the order “interfere[d] with [the group’s] decision-making processes,”
“expose[d] those processes to an opponent,” and
“w[ould] induce similar ongoing intrusions against religious bodies’ self-government”); cf. Boy Scouts of Am.
v. Dale, 530 U.S. 640, 648 (2000) (“Forcing a group to
accept certain members may impair [its] ability … to
express those views, and only those views, that it intends to express.”); see also W. COLE DURHAM & ROBERT SMITH, 1 RELIGIOUS ORGANIZATIONS & THE LAW
§ 5:17 (2017) (“[T]he church autonomy case law … has
resulted in [courts] declining to take jurisdiction over
numerous subject matters related to religion, including
… disputes concerning the discipline of church members, and claims arising from or related to church communications.”).
So it’s no surprise that the district court dismissed
this suit. Because there’s no way to adjudicate this dispute without violating the church autonomy doctrine.
For example, the panel acknowledges that, to determine whether North America unlawfully interfered
with McRaney’s contract with Maryland/Delaware, a
court will have to inquire why Maryland/Delaware voted to fire McRaney—including whether North America
“intentionally made false statements about him to
[Maryland/Delaware] that resulted in his termination”
or “damaged [his] business relationships”—and if so,
whether to punish North America for doing so.
McRaney, 966 F.3d at 349. Likewise, to determine
whether North America’s actions impermissibly deprived McRaney of a speaking slot at the mission sym-

52a
posium in Mississippi, a court will need to determine
whether North America “got him uninvited to speak at
the mission symposium”—and if so, why. Id. Finally,
to hold North America liable for defamation and intentional infliction of emotional distress, a court will have
to determine why North America circulated an internal
opinion about McRaney and excluded him from its own
headquarters—and then whether to punish North
America for doing so.
All of this is anathema to the First Amendment.
Decisions about who should lead, who should preach,
and who should be excluded are all quintessential examples of “internal management decisions” that the
Constitution leaves entirely to the discretion of the
church. And this is especially so where, as here, these
decisions were made as the result of a disagreement
over a core mission of the church—establishing new
churches and evangelizing new members.
III.
The panel’s various attempts to justify further proceedings in this case conflict with bedrock First
Amendment doctrine in several additional ways.
At first, the panel suggests that this suit does not
implicate the church autonomy doctrine, because
McRaney is merely asking the court to apply “neutral
principles of tort law,” and because dismissal of the
case would be tantamount to giving religious institutions a “preferred position in our society” by uniquely
immunizing them from civil liability. Id. at 348-49, 351.
There are various problems with these rationales,
as explained below. But among the most troubling is
this: Under the panel’s logic, no claim would ever be
subject to the church autonomy doctrine—every civil

53a
plaintiff purports to invoke neutral legal principles, and
every application of the church autonomy doctrine
grants religious organizations special treatment.
Moreover, these justifications miss a foundational principle of our Constitution—that the whole point of the
First Amendment is to give religion a “preferred position in our society.” Id. at 348. See, e.g., HosannaTabor, 565 U.S. at 189.
Perhaps in recognition of these difficulties, the
panel ultimately decides to backtrack. In the end, it
suggests that it is merely too early in the case to invoke
the church autonomy doctrine—and that the doctrine
might be successfully deployed at a later stage of the
litigation. But this too fails for multiple reasons. It’s
internally inconsistent with the panel’s neutral principles and preferential treatment theories, which would
presumably bar application of the church autonomy
doctrine at all stages of the case. It misunderstands
both the scope of and reasoning behind the church autonomy doctrine. And in any event, the district court
already has what the panel says it needs to wait for—
certainty that McRaney’s case will turn on whether
North America had “valid religious reason[s]” for its
actions. McRaney, 966 F.3d at 351. Indeed, that
standard was met with the very first docket entry in
the case—it is clear from the face of McRaney’s complaint (and further confirmed in his later filings) that
this case is all about whether North America’s actions
were based on “valid religious reason[s].” Id.
A.
To begin with, the panel contends that the church
autonomy doctrine does not apply here because this
suit only requires the court to apply “neutral principles

54a
of tort law.” Id. at 349. This is wrong for at least three
reasons.
First, the panel misinterprets the reference to
“neutral principles of law” in Jones v. Wolf, 443 U.S.
595, 602-04 (1979). To be sure, Jones held that courts
may employ “neutral principles of law as a means of adjudicating a church property dispute”—specifically,
that courts may “examine certain religious documents,
such as a church constitution, for language of trust in
favor of the general church.” Id. at 604. But this was
not to allow “religious autonomy concerns [to] be ignored whenever an ostensibly neutral or secular principle or policy seems relevant.” 1 REL. ORGS. § 5:16. Rather, it was designed “to protect religious autonomy,”
including “internal formulations of religious doctrine
and polity,” “by assuring that secular courts would intervene in religious affairs only when the religious
community itself had expressly stated in terms accessible to a secular court how a particular controversy
should be resolved.” Id. (emphases added). Jones thus
includes the following cautionary note: “If … the interpretation of the instruments of ownership … require[s]
the civil court to resolve a religious controversy, then
the court must defer to the resolution of the doctrinal
issue by the authoritative ecclesiastical body.” 443 U.S.
at 604 (emphases added).
So Jones is not an invitation to courts to decide all
church property disputes—let alone all other manner of
internal church disputes. Rather, it’s an invitation to
churches, where they deem it appropriate, to ask courts
to assist them in resolving certain church property disputes.
Moreover, the panel’s theory that this suit should
be allowed because it involves only “neutral principles

55a
of tort law” is tantamount to saying that any plaintiff
can litigate any case against a church, so long as he invokes a legal principle that complies with Employment
Division, Department of Human Resources of Oregon
v. Smith, 494 U.S. 872 (1990). After all, Smith ostensibly allows the government to impose “neutral law[s] of
general applicability” on the religious and non-religious
alike, so long as such laws are reasonably related to a
legitimate government interest. See id. at 879, 881 &
n.1. But the Supreme Court unanimously rejected this
position in Hosanna-Tabor. There the government attempted to apply federal non-discrimination law to a
church on the ground that the law complied with Smith.
See 565 U.S. at 189 (“The EEOC and [Plaintiff] … contend that our decision in [Smith] precludes recognition
of a ministerial exception.”). But that would require
reading Smith to overturn over a century of church autonomy precedent. Not surprisingly, then, the Supreme Court dismissed this argument as having “no
merit,” noting that Smith does not govern “internal
church decision[s] that affect[] the faith and mission of
the church itself.” Id. at 190. See also 1 REL. ORGS.
§ 5:12 (noting that Hosanna-Tabor “affirmed … that the
principle of church autonomy prevails over a neutral
and generally-applicable law[] if it interferes with a religious organization’s dismissal of an unwanted minister”). The panel’s “misguided application” of Jones “invokes external neutral standards to override religious
autonomy,” “profoundly weaken[ing] the protection
[that] the religious autonomy cases have long provided
against government intrusion in religious affairs,” and
“tak[ing] state power into protected domains in which

56a
[]binding religious autonomy cases do not allow it to
go.” Id. at § 5:16.1
And consider this: If an appeal to “neutral principles of tort law” were all it took to sue a religious institution, it would be the exception that swallowed the
rule. Under Guadalupe and Hosanna-Tabor, the
church autonomy doctrine immunizes religious institutions from various anti-discrimination claims. See also
id. at § 5:12 (noting that the Court’s decision to allow
church autonomy to bar suit brought under “a leading
piece of federal civil rights legislation” only “demonstrates [the doctrine’s] reach and power”). Surely the
panel would not contend that anti-discrimination laws
are non-neutral legal principles. So if the panel is right,
then Guadalupe and Hosanna-Tabor must be wrong.
Second, the Supreme Court has never extended the
“neutral principles of law” approach beyond the context
of church-property disputes. To the contrary, the
Court has “intimat[ed]” that the church autonomy doctrine “cannot be brushed aside as irrelevant or controlled by the ‘neutral principles’ rule of Jones v. Wolf
merely because it is raised in defense to common law
claims.” Id. See also id. (noting that in HosannaTabor, “the Court specifically mentioned contract and
tort claims … as settings where the ministerial exception might apply”). In fact, the Supreme Court and
lower courts have invoked the church autonomy doctrine across a broad range of claims—up to and even
1

In any event, compliance with Smith is hardly the hallmark
of First Amendment fidelity, considering that “[c]ivil rights leaders and scholars have derided … Smith … as ‘the Dred Scott of First
Amendment law.’” Horvath v. City of Leander, 946 F.3d 787, 794
(5th Cir. 2020) (Ho, J., concurring in the judgment in part and dissenting in part) (citing authorities).

57a
including church property disputes. See id. at § 5:17
(citing cases that “decline[d] to take jurisdiction over
numerous subject matters related to religion, including
… disputes over church property, disputes concerning
religious employment, disputes between ministers or
church leaders and the church, claims against clergy for
malpractice or breach of fiduciary duty, claims against
churches or church leaders for negligent hiring or poor
supervision of employees, disputes concerning the discipline of church members, and claims arising from or
related to church communications.”) (emphasis added).
Finally, the panel opinion violates our rule of orderliness. In Simpson, a dismissed pastor, like McRaney,
claimed that his suit could be resolved “on the basis of
‘neutral principles of law,’ which c[ould] be applied
without establishing any particular view or interpretation of religious doctrine.” 494 F.2d at 493. His suit only required the court to determine secular questions, he
claimed—namely, whether he was fired for “his views
on race and merger of the segregated church organization, and because of the color of his wife’s skin.” Id.
This was not a “church dispute,” he theorized, but a
secular “racial dispute.” Id. In short, “Simpson would
narrowly limit ecclesiastical disputes to differences in
church doctrine.” Id. (emphases added).
We rejected the argument. In doing so, we noted
that the pastor’s crabbed view of the church autonomy
doctrine contradicted the “‘spirit of freedom for religious organizations’ … reflected in the Supreme
Court’s decisions”—including the “‘power to decide for
themselves, free from state interference, matters of
church government as well as those of faith and doctrine.’” Id. (quoting Kedroff, 344 U.S. at 116).

58a
B.
The panel also contends that invoking the church
autonomy doctrine here would “impermissibly place a
religious [institution] in a preferred position in our society,” and allow “religious entities [to] effectively immunize themselves from judicial review of claims
brought against them.” McRaney, 966 F.3d at 348, 351.
But the whole point of the First Amendment, of
course, is to privilege religion. As the Supreme Court
has unanimously stated, “the text of the First Amendment itself … gives special solicitude to the rights of
religious organizations.” Hosanna-Tabor, 565 U.S. at
189.
That we need to be reminded of this may be what is
most alarming about this case. It is widely understood
(or at least it used to be) that “[w]e are a religious people whose institutions presuppose a Supreme Being.”
Zorach v. Clauson, 343 U.S. 306, 313 (1952). “Prayers
in our legislative halls; the appeals to the Almighty in
the messages of the Chief Executive; the proclamations
making Thanksgiving Day a holiday; ‘so help me God’ in
our courtroom oaths—these and all other references to
the Almighty … run through our laws, our public rituals, [and] our ceremonies.” Id. at 312-13.
So it should be beyond dispute that, “[w]hen the
state encourages religious instruction or cooperates
with religious authorities … it follows the best of our
traditions. For it then respects the religious nature of
our people and accommodates the public service to
their spiritual needs. To hold that it may not would be
to find in the Constitution a requirement that the government show a callous indifference to religious
groups.” Id. at 313-14.

59a
In short, protecting religious institutions from government interference is not just the point of the church
autonomy doctrine that the Supreme Court has recognized for nearly 150 years—it is foundational to who we
are as Americans.
C.
Having initially intimated that the church autonomy doctrine can never bar cases like McRaney’s, the
panel switches gears. It suggests that it is merely too
early to dismiss the case on that ground. As the panel
now theorizes, it is not yet “certain” that this case will
require the court to examine whether North America
acted for “valid religious reason[s].” McRaney, 966
F.3d at 351. North America must present some “evidence” of these religious reasons before a court may
consider dismissal on First Amendment grounds. Id.
Again, this approach is internally inconsistent with
the panel’s neutral principles and preferentialtreatment concerns, which would logically apply at all
stages of a lawsuit. It is also wrong for a number of additional reasons.
To begin with, we have no right to condition application of the church autonomy doctrine on a religious
institution’s ability to produce “evidence” that it had
“valid religious reasons” for its actions. Id. To the contrary, the Supreme Court has been very clear that the
church autonomy doctrine does not “safeguard a
church’s decision to fire a minister only when it is made
for a religious reason.” Hosanna-Tabor, 565 U.S. at 194
(emphasis added). “[A] church’s independence on matters ‘of faith and doctrine’ requires the authority to select, supervise, and if necessary, remove a minister
without interference by secular authorities.” Guada-

60a
lupe, 140 S. Ct. at 2060 (emphases added). That is why
“the general principle of church autonomy” guarantees
“independence,” not only in “matters of faith and doctrine,” but also in “matters of internal government.”
Id. at 2061.
The reason for the Court’s categorical approach in
this sphere is simple: Secular courts are not competent
to determine what constitutes a “valid religious reason”—let alone whether a party has produced sufficient
evidence of one. See, e.g., Milivojevich, 426 U.S. at 713
(“For civil courts to analyze whether the ecclesiastical
actions of a church … are … ‘arbitrary’ must inherently
entail inquiry into [what] … canon or ecclesiastical law
supposedly requires the church … to follow … . But
this is exactly the inquiry that the First Amendment
prohibits.”); Watson, 80 U.S. at 733 (“[C]ivil courts exercise no jurisdiction” over “matter[s] which concern[]
theological controversy.”).
Moreover, forcing religious institutions to defend
themselves on matters of internal governance is itself a
tax on religious liberty. See, e.g., NLRB v. Catholic
Bishop of Chicago, 440 U.S. 490, 502 (1979) (warning
that “the very process of inquiry” into “the good faith
of [a] position asserted by … clergy-administrators and
its relationship to [the organizations’] religious mission”
“may impinge on the rights guaranteed by the Religion
Clauses”); Hosanna-Tabor, 565 U.S. at 205-06 (Alito, J.,
concurring) (“[T]he mere adjudication of … questions
[regarding the “real reason” for the dismissal of a religious employee] would pose grave problems for religious autonomy: It would require calling witnesses to
testify about the importance and priority of [a] religious doctrine … , with a civil factfinder sitting in ultimate judgment of what the accused church really believes, and how important that belief is to the church’s

61a
overall mission.”); Whole Woman’s Health, 896 F.3d at
373 (finding it “self-evident” that enforcing a subpoena
against a third-party religious organization would
“chill[]” the group’s activities and “undermine[]” its
ability to “conduct frank internal dialogue and determinations”).
Indeed, by forcing a religious institution to produce
“evidence” of valid religious reasons for its actions, the
panel is approving the very kind of regime that the Supreme Court found so odious in Corporation of the Presiding Bishopric of the Church of Jesus Christ of Latter-day Saints v. Amos, 483 U.S. 327 (1987). “[I]t is a
significant burden on a religious organization to require
it, on pain of substantial liability, to predict which of its
activities a secular court will consider religious. The
line is hardly a bright one, and an organization might
understandably be concerned that a judge would not
understand its religious tenets and sense of mission.
Fear of potential liability might affect the way an organization carrie[s] out what it underst[ands] to be its
religious mission.” Id. at 336.
Finally, even accepting the panel’s incorrect standard, it is already obvious from the face of the complaint
that litigating this dispute will inevitably require inquiry into North America’s “valid religious reason[s].”
McRaney, 966 F.3d at 351. McRaney himself argues
that North America took action precisely because he
refused to accept church policy in “the specific area of
starting new churches, including the selection, assessing and training of church planters.” He likewise
admits in his response to the motion to dismiss that
“this cause of action had its roots in Church policy” and
“began as a battle of power and authority between two
religious organizations.”

62a
***
It should not be difficult for the district court to
dismiss this case again on remand, even accepting the
incorrect standards set forth by the panel. McRaney
admitted, both in his complaint and elsewhere, that this
case is rooted in a dispute over church policy. Those
statements were not mentioned by the panel, and they
should be enough to show on remand that there is “evidence” that this case will turn on whether there are
“valid religious reason[s]” behind the actions challenged here. Id.
I nevertheless find the panel decision troubling because it invites future challenges to internal church decisions based on “neutral principles of tort law.” Id. at
349. And no doubt future plaintiffs will be less candid
than McRaney in admitting the religious motivations at
the heart of their disputes.
The denial of rehearing en banc in this case is accordingly an “ominous sign” and “grave cause for concern” for “those who value religious freedom.” Stormans, Inc. v. Wiesman, 136 S. Ct. 2433, 2433 (2016)
(Alito, J., dissenting from the denial of certiorari). I respectfully dissent.

63a
ANDREW S. OLDHAM, Circuit Judge, joined by SMITH,
WILLETT, DUNCAN, and WILSON, Circuit Judges, dissenting from the denial of rehearing en banc:
The Supreme Court has told us that the judicial
power of the United States does not extend to ministry
disputes. Watson v. Jones, 80 U.S. 679, 727 (1871); see
also Our Lady of Guadalupe Sch. v. Morrissey-Berru,
140 S. Ct. 2049, 2059-61 (2020). This case should’ve
ended with a straightforward application of that doctrine. Dr. McRaney got into a ministry dispute with
the Baptist Convention of Maryland/Delaware
(“BCMD”) and the North American Mission Board.
The source of that dispute? McRaney did not share the
religious organizations’ ministry vision for church
planting. So BCMD voted to terminate McRaney.
Then McRaney brought the ecclesiastical dispute to the
civil courts. The ecclesiastical-autonomy doctrine requires us to stay out of it. But our panel decision puts
us in the middle of it. Indeed, the district court on remand is tasked with determining whether the ecclesiastical organizations have “valid religious reasons” for
their actions. I respectfully dissent.
I.
As always, I start with the Constitution’s original
public meaning. The ecclesiastical-autonomy doctrine
has a rich historical pedigree. And that history informed the meaning of the Constitution and its Religion
Clauses at the Founding.
A.
In the Middle Ages, clergy were categorically exempt from the reach of civil courts. See FELIX MAKOWER, THE CONSTITUTIONAL HISTORY AND CONSTI-

64a
CHURCH OF ENGLAND 384-94 (London,
1895). During the reign of the Saxon kings, civil courts
had no jurisdiction over clergy accused of even clearly
secular crimes unless and until the bishop divested
them of their spiritual authority. LEONARD W. LEVY,
ORIGINS OF THE FIFTH AMENDMENT 43 (1968); see, e.g.,
Wihtræd c. 6 (695) (“If a priest allow of illicit intercourse; or neglect the baptism of a sick person, or be
drunk to that degree that he cannot do it; let him abstain from his ministry until the doom of the bishop.”);
Alfred c. 21 (892) (“If a priest kill another man, … let
the bishop secularize him; then let him be given up from
the minister … .”); Edward and Guthrum c. 4 § 2 (906)
(“If a priest commits a crime worthy of death, he shall
be seized and kept until the bishop’s judgment.”).1 And
during the reign of King Edgar the Peaceful (959-975),
the Church required all disputes between clergymen to
be addressed before bishops and not secular courts.
See MAKOWER, supra, at 389. Spiritual supervisors retained exclusive competence to discipline clergy, and
civil courts could not intervene in church matters. See
id. at 389-90.
TUTION OF THE

The Church’s exclusive jurisdiction over clergy
served as a one-way jurisdictional boundary. See id. at
390-91. Although civil courts were powerless to interfere with the matters affecting clergy or other ministerial prerogatives, religious authorities extended their
power into the operation of civil courts in a variety of
ways. See id. at 385-86. For example, ecclesiastical
1

Obviously, the present case involves only non-criminal controversies and, beyond that, is limited to disputes between and
among ecclesiastical officials. The aforementioned examples are
meant only to illustrate the ancient roots of ecclesiastical jurisdiction.

65a
leaders served alongside a “high civil official” on civil
courts. Id. at 384. King Edgar mandated that “the
bishop of the shire and the ealdorman” sit together as a
civil judicial body empowered to apply both “the law of
God” and “the secular law.” Edgar III c. 5. Thus, while
civil officials had no role in ecclesiastical matters, ecclesiastical officials adjudicated both sectarian and secular
matters. See MAKOWER, supra, at 384-85; WILLIAM
RICHARD WOOD STEPHENS, THE ENGLISH CHURCH
FROM THE NORMAN CONQUEST TO THE ACCESSION OF
EDWARD I at 49 (1901).
The Norman Conquest further solidified the divide.
Around 1076, King William I issued an ordinance formally divesting civil courts of subject matter jurisdiction over religious matters. See Ordinance of William I
Separating the Spiritual and Temporal Courts (“[N]o
bishop … shall … bring before the judgment of secular
men any case which pertains to the rule of souls.”); 1
WILLIAM STUBBS, THE CONSTITUTIONAL HISTORY OF
ENGLAND IN ITS ORIGIN AND DEVELOPMENT 307-08 (3d
ed. Oxford, 1897). The ordinance established separate
ecclesiastical courts. STEPHENS, supra, at 49. As a result, bishops and other clergy were granted exclusive
jurisdiction over all cases “pertain[ing] to the rule of
souls.” Ordinance of William I. Not only did the
Church retain exclusive personal jurisdiction over cases involving its clergymen, it also gained exclusive subject matter jurisdiction over disputes involving “the
canons and the episcopal laws.” Ibid.; accord MAKOWER, supra, at 392. The resulting changes were legion.
See STUBBS, supra, at 307-08.
Over the next several centuries, the civil and ecclesiastical courts continued to dispute the boundaries of
their respective jurisdictions. See MAKOWER, supra, at
392-93. The courts each strived to extend their compe-

66a
tence to reach additional categories of cases claimed by
the other. Ibid. In their struggle, “[t]he lay courts employed new weapons” while “the clergy resorted to the
old.” Harold W. Wolfram, The “Ancient and Just” Writ
of Prohibition in New York, 52 COLUM. L. REV. 334,
334 (1952).
For example, the clergy threatened to excommunicate civil judges who infringed ecclesiastical jurisdiction, while civil courts issued writs of prohibition. Ibid.
Writs of prohibition were injunctive. See Norma Adams, The Writ of Prohibition to Court Christian, 20
MINN. L. REV. 272, 274 (1936). Blackstone described
them as necessary to secure the jurisdiction of the
King’s Bench over secular controversies. 3 WILLIAM
BLACKSTONE, COMMENTARIES *112. When issued,
they stripped ecclesiastical jurisdiction and required
transfer of the case to a civil court. See Adams, supra,
at 274.
But a writ of prohibition was not always the last
word. See id. at 291-92. An ecclesiastical court could
challenge a writ of prohibition with a competing writ of
consultation seeking return of the suit to its court.
Ibid. The writs of prohibition and consultation created
a procedural mechanism for deciding the appropriate
venue for resolution of particular controversies. But
they did precious little to clarify the jurisdictional
boundary between the secular and sacred. The line between the two remained an oft-litigated source of controversy for centuries to come.
Consider for example the famed case of Nicholas
Fuller. See Nicholas Fuller’s Case (1607), 12 Co. Rep.
41 (K.B.). There, the High Commission—an ecclesiastical court—hauled Fuller before it to answer for various
contemptuous statements he made against high com-

67a
missioners and other religious authorities. See Roland
G. Usher, Nicholas Fuller: A Forgotten Exponent of
English Liberty, 12 AM. HIST. REV. 743, 747-48 (1907).
But Fuller, a rabble-rousing lawyer, disputed the jurisdiction of the High Commission and sought a writ of
prohibition to transfer the case to the King’s Bench. Id.
at 749—50. Fuller argued that because his case implicated slander and contempt—purely secular crimes—
jurisdiction could not lie in an ecclesiastical court. See
12 Co. Rep. at 42; Usher, supra, at 749-50. The King’s
Bench issued the writ prohibiting ecclesiastical jurisdiction based on the secular crimes for which Fuller
stood accused. Usher, supra, at 750. But upon reconsideration, Sir Edward Coke, then Chief Justice of the
King’s Bench, issued a writ of consultation partially returning jurisdiction to the High Commission. 12 Co.
Rep. at 43-44. In doing so, Coke recognized and reaffirmed the jurisdictional boundary between ecclesiastical and civil jurisdiction.
The important point for present purposes is not the
precise contours of that boundary, which obviously
changed over time. What matters is that the jurisdictional line prohibiting civil courts from intruding on ecclesiastical matters is an ancient one. It goes back to
the Middle Ages. It has been part of England’s formal
law since William the Conqueror. It’s so entrenched in
English history that even Coke—the seventeenth century’s fiercest champion of civil jurisdiction and the
common law—respected it. And although there were
disputes about boundaries of ecclesiastical jurisdiction
over laypersons like Nicholas Fuller, there could be little dispute about ecclesiastical jurisdiction over ecclesiastical matters like ministry disputes and discipline.

68a
B.
English philosopher John Locke also recognized the
jurisdictional boundary between religious and civil authority. His Letter Concerning Toleration sought “to
distinguish exactly the business of civil government
from that of religion, and to settle the just bounds that
lie between the one and the other.” JOHN LOCKE, A
LETTER CONCERNING TOLERATION 10 (J. Brook ed.,
1796) (1689). Locke believed it was “the duty of the civil magistrate, by the impartial execution of equal laws,
to secure unto all the people in general, and to every
one of his subjects in particular, the just possession of
these things belonging to this life.” Id. at 11. But he
recognized that because the “jurisdiction of the magistrate reaches only to these civil concernments … it neither can nor ought in any manner to be extended to the
salvation of souls.” Ibid. (emphasis added); cf. Ordinance of William I.
Locke’s work was foundational to the original public understanding of church autonomy in America. See
Michael W. McConnell, The Origins and Historical
Understanding of Free Exercise of Religion, 103 HARV.
L. REV. 1409, 1431 (1990) (“Locke’s ideas … are [an] indispensable part of the intellectual backdrop for the
framing of the free exercise clause.”); Carl H. Esbeck,
Dissent and Disestablishment: The Church-State Settlement in the Early American Republic, 2004 BYU L.
REV. 1385, 1420 (2004) (“Locke’s theory was imbibed by
most educated Americans … .”); Noah Feldman, The
Intellectual Origins of the Establishment Clause, 77
N.Y.U. L. REV. 346, 354 (2002) (“Locke’s version of the
idea of liberty of conscience formed the basic theoretical ground for the separation of church and state in
America.”). For example, Baptist preacher John Leland made almost verbatim Lockean arguments in fa-

69a
vor of disestablishment: “The rights of conscience
should always be considered inalienable—religious
opinions a[re] not the objects of civil government, nor
any way under its jurisdiction.” John Leland, The
Yankee Spy: Calculated for the Religious Meridian of
Massachusetts, but Will Answer for New Hampshire,
Connecticut, and Vermont, Without Any Material Alterations (1794), reprinted in THE WRITINGS OF THE
LATE ELDER JOHN LELAND 213, 228 (1845). But Locke
didn’t go far enough for many Evangelicals. That’s because Locke was a legislative supremacist—he believed
a conflict between the law and matters of faith “does
not take away the obligation of that law, nor deserve a
dispensation.” A LETTER CONCERNING TOLERATION,
supra, at 51. Locke attempted to rationalize his position by arguing that such conflicts would “seldom happen.” Ibid.
That was hollow solace to “[t]he Baptists languishing in the Culpepper jail and the Presbyterians fighting
legislative interference with their form of church governance.” McConnell, supra, at 1445. So Evangelicals
in America argued for disestablishment on grounds
that establishment tended to corrupt religion through
governmental interference. See, e.g., Declaration of the
Virginia Association of Baptists (Dec. 25, 1776), reprinted in 1 THE PAPERS OF THOMAS JEFFERSON 66061 (Julian P. Boyd ed., 1950) [hereinafter PAPERS OF
THOMAS JEFFERSON] (arguing that preachers should
not be “Officers of the State” because “those whom the
State employs in its Service, it has a Right to regulate
and dictate to; it may judge and determine who shall
preach; when and where they shall preach; and what
they must preach.”). And they argued that ecclesiastical jurisdiction must be defined by looking to “what
matters God is concerned about, according to the con-

70a
scientious belief of the individual.” McConnell, supra,
at 1446.
James Madison echoed those views. Madison’s personal opinions did not always accord with the Religion
Clauses he helped frame.2 So I reference him simply as
one datum in the public understanding of ecclesiastical
jurisdiction.
In 1785, when Virginia’s legislature
sought to pass a bill providing for compulsory support
of religion, Madison penned the then-anonymous Memorial and Remonstrance Against Religious Assessments. Madison objected “[b]ecause if Religion can be
exempt from the authority of the Society at large, still
less can it be subject to that of the Legislative Body.
The latter are but the creatures and vicegerents of the
former. Their jurisdiction is both derivative and limited.” James Madison, Memorial and Remonstrance
Against Religious Assessments (June 20, 1785), in 5
THE FOUNDERS’ CONSTITUTION 82 (Philip B. Kurland
& Ralph Lerner eds., 1987). And further emphasizing
the line between ecclesiastical jurisdiction and civil authority, Madison objected:
Because the Bill implies either that the Civil
Magistrate is a competent Judge of Religious
Truth; or that he may employ Religion as an
engine of Civil policy. The first is an arrogant
pretension falsified by the contradictory opinions of Rulers in all ages, and throughout the
2

To take one example, the First Amendment plainly allows
Congress to have a Chaplain. See Marsh v. Chambers, 463 U.S.
783 (1983). As a member of the first Congress, Madison voted for
the bill that established the Chaplain. See 1 ANNALS OF CONG. 891
(1789). Yet many years later, he expressed his personal view that
the office was unconstitutional. See Elizabeth Fleet, Madison’s
“Detached Memoranda,” 3 WM. & MARY Q. 534, 558 (1946).

71a
world: the second an unhallowed perversion of
the means of salvation.
Id. at 83.
And even Thomas Jefferson—who had little or no
sympathy for America’s churches—evoked ecclesiastical jurisdiction. (Query, however, whether he did so
unwittingly.) In 1801, the Danbury Baptist Association
wrote to President-elect Jefferson, explaining that
their “[s]entiments are uniformly on the side of Religious Liberty” and expressing hope that Jefferson
would recognize that religion “is at all times and places
a Matter between God and Individuals.” 35 PAPERS OF
THOMAS JEFFERSON, supra, at 407-09. Jefferson saw
the letter as providing an opportunity “to reprimand
his clerical and Federalist opponents and to propagate
his own, profoundly anticlerical, vision of the relationship of religion to politics.” PHILIP HAMBURGER, SEPARATION OF CHURCH AND STATE 144 (2002). Three
months later, Jefferson responded:
Believing with you that religion is a matter
which lies solely between Man & his God, that
he owes account to none other for his faith or
his worship, that the legitimate powers of government reach actions only, & not opinions, I
contemplate with sovereign reverence that act
of the whole American people which declared
that their legislature should “make no law respecting an establishment of religion, or prohibiting the free exercise thereof,” thus building a wall of separation between Church &
State.
36 PAPERS OF THOMAS JEFFERSON, supra, at 258.

72a
Jefferson’s wall metaphor went almost completely
unnoticed in the nineteenth century. See Hamburger,
supra, at 162-64. And it was generally misunderstood
in the twentieth century: “[W]hat should be regarded
as an important feature of religious freedom under constitutionally limited government too often serves as a
slogan, and is too often employed as a rallying cry, not
for the distinctiveness and independence of religious
institutions, but for the marginalization and privatization of religious faith.” Richard W. Garnett, Pluralism,
Dialogue, and Freedom: Professor Robert Rodes and
the Church-State Nexus, 22 J.L. & RELIGION 503, 504
(2006-2007). The Supreme Court invoked it, see Everson v. Bd. of Educ., 330 U.S. 1, 16 (1947), but not without criticism, see Wallace v. Jaffree, 472 U.S. 38, 107
(1985) (Rehnquist, C.J., dissenting) (“Whether due to
its lack of historical support or its practical unworkability, the Everson ‘wall’ has proved all but useless as a
guide to sound constitutional adjudication.”). And in
the twenty-first century, it appears the Supreme Court
has relegated Jefferson’s “wall” to dissenting opinions.
See, e.g., Am. Legion v. Am. Humanist Ass’n, 139 S. Ct.
2067, 2105 (2019) (Ginsburg, J., dissenting); Van Orden
v. Perry, 545 U.S. 677, 708 (2005) (Stevens, J., dissenting).
Of interest here, however, Jefferson did not invent
the metaphor. Before Jefferson, Roger Williams invoked the wall as an aspirational “image of the purity
he sought in religion.” HAMBURGER, supra, at 38. Before Williams was Richard Hooker. See id. at 32-38
(explaining how the wall between church and state
“first became widely known in England when [Anglican
apologist] Richard Hooker ungenerously used it to
characterize the position of Protestant dissenters who
sought to purify the English church”). And before that,

73a
Christians had used the “ancient phrase,” id. at 3, since
the time of Jesus. See Garnett, supra, at 507 (noting
that the separation of church and state was “an ancient
Western teaching rooted in the Bible” (quoting JOHN
WITTE, JR., GOD’S JOUST, GOD’S JUSTICE: LAW AND
RELIGION IN THE WESTERN TRADITION 210 (2006))).
Early Christians invoked the wall to “differentiate[]
between civil and ecclesiastical jurisdiction—between
the powers of regnum and sacerdotium.” HAMBURGER,
supra, at 23. And “they often took for granted that
church and state were distinct institutions, with different jurisdictions and powers.” Id. at 21.
II.
Consistent with the history recounted above, the
Supreme Court has held that the ecclesiasticalautonomy doctrine carries jurisdictional consequences.
In Watson v. Jones, two competing church factions invoked civil jurisdiction to resolve their dispute over
church property. 80 U.S. at 691-92. The dispositive issue was jurisdictional—namely, whether the judicial
power of the United States extended to such ecclesiastical disputes. See id. at 732-33. The Court held that
churches, rather than courts, have the final say over
disputes implicating “theological controversy, church
discipline, ecclesiastical government or the conformity
of the members of the church to the standards of morals required.” Ibid. The upshot: over ecclesiastical and
religious controversies, “civil courts exercise no jurisdiction.” Id. at 733.
Of course, “‘jurisdiction’ … is a word of many, too
many, meanings.” Arbaugh v. Y&H Corp., 546 U.S.
500, 510 (2006) (quotation omitted). And the “profligate
use of the term” has caused much confusion. See United Pac. R.R. Co. v. Bhd. of Locomotive Eng’r & Train-

74a
men Gen. Comm. of Adjustment Cent. Region, 558 U.S.
67, 81-83 (2009) (describing the general confusion
caused by courts using the word “jurisdiction” to refer
to various unrelated legal concepts).
But the Watson Court emphasized that it really
meant what it said. See 80 U.S. at 732-33. It explained
that a civil court wielding the judicial power to settle an
ecclesiastical dispute would be tantamount to a church
“try[ing] one of its members for murder, and punish[ing] him with death or imprisonment.” Id. at 733.
Such a sentence would “be utterly disregarded by any
civil court” because the crime of murder falls within the
exclusive jurisdiction of civil authorities. Ibid. Similar,
the Court explained, is the exclusive jurisdiction of a
church to settle ecclesiastical or ministerial disputes.
Id. at 733-34. The Supreme Court later anchored Watson’s jurisdictional holding in the First Amendment.
See Kedroff v. St. Nicholas Cathedral of Russian Orthodox Church in N. Am., 344 U.S. 94, 116 (1952) (noting that the Watson “opinion[] radiates … a spirit of
freedom for religious organizations” and “an independence from secular control or manipulation”). And the
Court reaffirmed it in 1976. See Serbian E. Orthodox
Diocese for U.S. & Canada v. Milivojevich, 426 U.S.
696, 713 (1976) (preventing courts from inquiring into
church personnel decisions in observation of “the general rule that religious controversies are not the proper
subject of civil court inquiry”). So far so neat.
In subsequent cases, however, the Court created
contrary rules. See, e.g., Jones v. Wolf, 443 U.S. 595,
602 (1979) (explaining that “a State is constitutionally
entitled to adopt neutral principles of law as a means of
adjudicating a church property dispute”); Emp. Div. v.
Smith, 494 U.S. 872 (1990) (purporting to exclude neutral laws of general applicability from First Amend-

75a
ment scrutiny). Then in Hosanna-Tabor Evangelical
Lutheran Church & Sch. v. E.E.O.C., the Supreme
Court unanimously rejected the proposition that cases
like Smith preclude ecclesiastical exemptions to neutral
laws. See 565 U.S. 171, 189-90 (2012). At the same
time, Hosanna-Tabor mentioned in a footnote that part
of the ecclesiastical-autonomy doctrine “operates as an
affirmative defense to an otherwise cognizable claim,
not a jurisdictional bar.” Id. at 195 n.4. And while Our
Lady of Guadalupe broadly reaffirmed ecclesiastical
autonomy in matters of faith, ministry, doctrine, and
church governance, it did not have occasion to consider
whether the doctrine retains jurisdictional consequences. Cf. 140 S. Ct. at 2060 (“[C]ourts are bound to stay
out of employment disputes involving those holding
certain important positions with churches and other religious institutions.”).3
Since Hosanna-Tabor, confusion over the ecclesiastical-autonomy doctrine has increased. Some courts
still see it as jurisdictional. See, e.g., Flynn v. Estavez,
3

If the ecclesiastical-autonomy doctrine retains jurisdictional
consequences, it’s not clear they come from the First Amendment.
After all, the text of that Amendment does not purport to limit the
judicial power of the United States—unlike say the Eleventh
Amendment. See U.S. CONST. amend. XI (“The Judicial power of
the United States shall not be construed to extend to any suit in
law or equity, commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or Subjects of
any Foreign State.”). On the other hand, the Supreme Court has
made clear that States enjoy sovereign immunity outside of the
Eleventh Amendment—and that immunity carries jurisdictional
consequences. See, e.g., Kimel v. Fla. Bd. of Regents, 528 U.S. 62,
72-73 (2000); Seminole Tribe of Fla. v. Florida, 517 U.S. 44, 54, 7273 (1996). It’s possible that the jurisdictional consequences of the
ecclesiastical-autonomy doctrine likewise come from the original
public meaning of Article III.

76a
221 So. 3d 1241, 1247 (Fla. Dist. Ct. App. 2017) (“In
Florida, courts have interpreted the doctrine as a jurisdictional bar, meaning a claim should be dismissed upon
a determination that it requires secular adjudication of
a religious matter.”(quotation omitted)); Bigelow v.
Sassafras Grove Baptist Church, 786 S.E.2d 358, 365
(N.C. Ct. App. 2016) (noting “the ecclesiastical abstention doctrine … is a jurisdictional bar to courts adjudicating ecclesiastical matters of a church”); In re St.
Thomas High Sch., 495 S.W.3d 500, 506 (Tex. App.—
Houston [14th Dist.] 2016), appeal dism’d sub nom. St.
Thomas High Sch. v. M.F.G., 2016 Tex. App. LEXIS
5035 (Tex. App.—Houston [14th Dist.] July 12, 2016, no
pet.) (noting the church-autonomy doctrine is “a
threshold jurisdictional question”). Those courts think
Hosanna-Tabor left Watson’s broader rule undisturbed. See, e.g., Church of God in Christ, Inc. v. L. M.
Haley Ministries, Inc., 531 S.W.3d 146, 157 (Tenn.
2017) (recognizing that the “ecclesiastical abstention
doctrine predates the ministerial exception by almost a
century” and concluding Hosanna-Tabor “did not address” that doctrine).
But others think the Hosanna-Tabor footnote necessitates a reexamination of the jurisdictional consequences of ecclesiastical autonomy. See, e.g., Doe v.
First Presbyterian Church U.S.A. of Tulsa, 421 P.3d
284, 290-91 (Okla. 2017) (noting the church-autonomy
doctrine “operates as an affirmative defense” (quoting
Hosanna-Tabor, 565 U.S. at 195 n.4)); St. Joseph Catholic Orphan Soc’y v. Edwards, 449 S.W.3d 727, 737 (Ky.
2014) (“[T]he ecclesiastical-abstention doctrine is an affirmative defense.”); Pfeil v. St. Mathews Evangelical
Lutheran Church of Unaltered Augsburg Confession of
Worthington, 877 N.W.2d 528, 534-35 (Minn. 2016) (reversing course on previous holding and noting “Hosan-

77a
na-Tabor leads us to conclude that the ecclesiastical abstention doctrine is not a jurisdictional bar”).
Of course, it’s not our job to decide whether Watson remains binding. It remains binding on us until the
Supreme Court says otherwise. See, e.g., State Oil Co.
v. Khan, 522 U.S. 3, 20 (1997) (noting “it is [the Supreme] Court’s prerogative alone to overrule one of its
precedents”). And that’s reason enough to justify rehearing this case en banc. See FED. R. APP. P.
35(b)(1)(A) (listing as a ground for rehearing that “the
panel decision conflicts with a decision of the United
States Supreme Court”).
Moreover, this case is rich with questions of exceptional importance. See FED. R. APP. P. 35(a)(2). For
example, ecclesiastical jurisdiction at one time extended to certain torts, like defamation, that today seem
purely secular. See 10 Edw. 2, stat. 1 c. 4 (1316) (recognizing ecclesiastical jurisdiction over “defamations”); cf.
Fuller’s Case, 12 Co. Rep. at 44 (distinguishing between secular “slander” and ecclesiastical “Heresy,
Schism, and erroneous Opinions, &c.”). Does it extend
to McRaney’s defamation claim? If so, does ecclesiastical autonomy require dismissal of it? What do we make
of the post-Hosanna-Tabor split of authority on the jurisdictional consequences vel non of the ecclesiasticalautonomy doctrine? Our refusal to grant rehearing
means these questions must wait for another day.

78a
UNITED STATES OF COURT OF APPEALS
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

November 25, 2020
MEMORANDUM TO COUNSEL OR PARTIES
LISTED BELOW:
No. 19-60293

Will McRaney v. N Amer Mission
Bd So Baptist
USDC No. 1:17-CV-80

Enclosed is an order entered in this case.
Sincerely,
LYLE W. CAYCE, Clerk
By: signature
Whitney M. Jett, Deputy Clerk
504-310-7772
Mr. William Harvey Barton II
Mr. Justin E. Butterfield
Ms. Kathleen Ingram Carrington
Mr. Stephen M. Crampton
Mr. David Crews
Ms. Donna Brown Jacobs
Mr. Matthew T. Martens
Mr. Hiram Stanley Sasser III
Mrs. Natalie Deyo Thompson
Mr. Joshua Jerome Wiener

